Report No. D2008-041        January 14, 2008




  Management of the General Fund Enterprise
             Business System
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ASD (NII/CIO)         Assistant Secretary of Defense for Networks and Information
                         Integration/Chief Information Officer
BPA                   Blanket Purchase Agreement
CARD                  Cost Analysis Requirements Description
COTS                  Commercial Off-the-Shelf
DFAS                  Defense Finance and Accounting Service
EA                    Economic Analysis
ERP                   Enterprise Resource Planning
FAR                   Federal Acquisition Regulation
FINSRAC               Financial System Realignment and Categorization
GFEBS                 General Fund Enterprise Business System
OSD (PA&E)            Office of the Secretary of Defense (Program Analysis and
                         Evaluation)
OUSD (AT&L)           Office of the Under Secretary of Defense for Acquisition,
                         Technology, and Logistics
PEO EIS               Program Executive Office Enterprise Information Systems
RDT&E                 Research, Development, Test, and Evaluation
RFQ                   Request for Quotation
SME                   Subject Matter Expert
SOO                   Statement of Objectives
USD (C)/CFO           Under Secretary of Defense (Comptroller)/Chief Financial Officer
                             INSPECTOR GENERAL

                             DEPARTMENT OF DEFENSE

                               400 ARMY NAVY DRIVE

                          ARLINGTON, VIRGINIA 22202-4704


                                                                           Januaty 14, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (ACQUlSITION,
                 TECHNOLOGY, AND LOGISTICS)
               UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Report on Management of the General Fund Enterprise Business System
         (Report No. D-2008-041)


      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We are redirecting Recommendation A.1. to the Assistant Secretary of Defense for
Networks and Information IntegrationiChiefInformation Officer and request that
management provide comments. As a result of comments from the Under Secretmy of
Defense for Acquisition, Teclmology, and Logistics and the Assistant Secretaty of the
Atmy (Financial Management and Comptroller) we revised Recommendations A.2.c.,
B.l., and B.2. We request that the Under Secretmy of Defense for Acquisition,
Technology, and Logistics provide comments on revised Recommendation B.1, and the
Under Secretmy of Defense (Comptroller)/ChiefFinancial Officer provide comments on
revised Recommendations B.2. and C.1. Also, we request that the Assistant Secretmy of
the Army (Acquisition, Logistics, and Teclmology) provide comments on
Recommendation C.2.d. Management should provide comments on the final report and
indicate concurrence or nonconcurrence with the potential monetary benefits by
Febmmy 14, 2008.

        Ifpossib1e, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies ofthe management comments must
contain the actual signature ofthe authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Jack L. Armstrong at (317) 510-4801, ext. 274 (DSN 699-4801) or Mr. Craig W.
Michaels at (317) 510-4801, ext. 230 (DSN 699-4801). See Appendix F for report
distribution. The audit team members are listed inside the back cover.

                               By direction ofthe Deputy Inspector General for Auditing:



                                        ~ Q.                mcvvJv
                                     For Paul J. Granetto, CPA
                                Assistant Inspector General and Director
                                  Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-041                                                    January 14, 2008
   (Project No. D2006-D000FI-0017.000)

                             Management of the

                   General Fund Enterprise Business System 


                                  Executive Summary 


Background. This report discusses the Army’s justification, planning, and acquisition of
the General Fund Enterprise Business System (GFEBS). The FY 2006 Army General
Fund Financial Statements reported assets of $226.6 billion, liabilities of $70.3 billion,
and budgetary resources of $229.4 billion. The Army has acknowledged it does not meet
the requirements of the Chief Financial Officers Act of 1990, which requires that
auditable financial statements be prepared annually. The lack of integrated,
transaction-driven, financial management systems prevents the Army from preparing
auditable financial statements. To address this issue, the Army is developing GFEBS,
which will replace at least 77 existing systems currently supporting Army General Fund
accounting and financial management.

Results and Management Comments

        Finding A., Program Planning. The Army did not effectively plan the
acquisition of GFEBS system integration services. This lack of planning places the
program at high risk for incurring schedule delays, exceeding planned costs, and not
meeting program objectives. We recommended that the Office of Management and
Budget list of High-Risk Information Technology Projects include the GFEBS program.
The Office of the Under Secretary of Defense (Acquisition, Technology, and Logistics)
(OUSD [AT&L]) partially concurred with this recommendation and stated that the
Assistant Secretary of Defense for Networks and Information Integration/Chief
Information Officer is responsible for the high-risk list within the Office of the Secretary
of Defense. As a result, we redirected the recommendation and requested that the
Assistant Secretary of Defense for Networks and Information Integration/Chief
Information Officer provide comments to the final report. We also recommended that the
Assistant Secretary of the Army (Financial Management and Comptroller) define GFEBS
program requirements and adjust the current GFEBS deployment schedules to allow
more time for properly defining program requirements. Finally, we recommended that
the Assistant Secretary withhold funding from unresponsive system owners, identify the
subject matter experts for the systems that GFEBS will need to interface with or replace,
and prepare a detailed data conversion plan. The Assistant Secretary concurred with
these recommendations and has revised the GFEBS timelines in the Army Strategic Plan.
We will continue to monitor the GFEBS program to ensure that the data conversion plan
is adequate and the system implementation meets the established timeframes.

         Finding B., Commercial Item Acquisition. The Army used an inappropriate
method to contract for services to design, develop, integrate, and implement GFEBS.
The GFEBS contract lacked adequate controls, and the Army has incurred about
$3.9 million in unnecessary fees for contract administration. We revised the
recommendations to clarify the need for DoD policy that limits commercial acquisitions
to end items that are nondevelopmental. OUSD (AT&L) did not agree to establish policy
that is consistent with United States Code. Specifically, OUSD (AT&L) staff did not
agree to provide guidance regarding the use of Research, Development, Test, and
Evaluation funding for commercial procurement and to discontinue using blanket
purchase agreements that violate this guidance. They also stated that the Enterprise
Software Initiative Blanket Purchase Agreement approach for acquiring commercial
information technology and integration services is a tool available for programs with
defined requirements. We consider this comment to be nonresponsive, because the
GFEBS program does not lend itself to fixed-pricing. We request that OUSD (AT&L)
staff reconsider their position and provide comments on the final report. OUSD (AT&L)
staff did agree with our recommendation to provide written commercial determinations to
justify procurements over $1 million and stated that contracting officers must provide
written commercial determinations to comply with a March 2, 2007, Defense
Procurement and Acquisition Policy memorandum. We consider these comments to be
partially responsive and request that OUSD (AT&L) provide comments to the final report
describing how the requirements of the memorandum will be implemented. The Under
Secretary of Defense (Comptroller)/Chief Financial Officer did not provide comments to
our recommendation to withhold obligation authority from programs planning to use the
Enterprise Software Initiative Blanket Purchase Agreement for large and complex system
implementations until: (1) requirements are fully defined and approved and (2) the use of
Research, Development, Test, and Evaluation funding is no longer required. Therefore,
we request that Under Secretary of Defense (Comptroller)/Chief Financial Officer staff
provide comments on this recommendation in response to the final report. The Director,
Program Executive Office Enterprise Information Systems agreed to obtain contract
auditing services to monitor contract costs but still needs to provide an action date in
response to the final report.

        Finding C., Economic Analysis. The Army did not prepare a realistic economic
analysis (EA) for the GFEBS program. As a result, the Army did not provide sufficient
economic justification to support the decision to invest more than $556.2 million in
GFEBS and does not have realistic baseline information needed to manage the GFEBS
program. Assistant Secretary of the Army (Acquisition, Logistics, and Technology) staff
agreed to prepare a fully supported EA, but did not provide comments on the
recommendation to retain documentation of those reviews and validations. We request
that they provide comments on the final report. OUSD (AT&L) and the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology) agreed with our
recommendation to continue, modify, or discontinue the GFEBS program based on the
updated economic analysis when making the milestone decision. However, Under
Secretary of Defense (Comptroller)/Chief Financial Officer staff did not comment on it.
Accordingly, we request that they provide comments on the final report. We deleted the
recommendation to put the GFEBS contracts on hold because of management concerns
that the contracts were needed for the completion of the system design work. The
Director, Defense Finance and Accounting Service, did not agree with our
recommendation to develop and implement procedures to ensure that information
provided to decision makers to develop EAs is complete, supported, and retained.
Defense Finance and Accounting Service staff stated that they have taken action to
retrieve and retain documentation for the GFEBS EA; however, no policy has been
issued. We request that they reconsider this position and include planned actions to
ensure that documentation is retained in the future.

We issued a draft of this final report on July 3, 2007. We request that management, when
appropriate, provide comments on the final report by February 14, 2008. See the Finding
sections for discussion of management comments and the Management Comments
section for the full text of the comments.
Table of Contents 


Executive Summary	                                                  i


Background	                                                         1


Objectives	                                                         3


Review of Internal Controls 	                                       3


Findings
      A. Program Planning	                                          5

      B. Commercial Item Acquisition	                              14 

      C. Economic Analysis	                                        23 


Appendixes
      A. Scope and Methodology	                                    35 

          Prior Coverage                                           36 

      B. Acquisition and Contract Guidance	                        37

      C. System Analysis	                                          40

      D. Commercial Study Quantified Benefits	                     47 

      E. Summary of Potential Monetary Benefits	                   48

      F. Report Distribution	                                      49


Management Comments
      Office of the Under Secretary of Defense for Acquisition,
            Technology, and Logistics 	                            51 

      Department of the Army 	                                     54 

      Defense Finance and Accounting Service 	                     64 

      Assistant Secretary of Defense Chief Information Officer 	   65 

      Business Transformation Agency 	                             67 

Background
    Federal Financial Reporting Requirements. The Chief Financial Officers Act
    of 1990 requires that auditable financial statements be prepared annually. It also
    guides the improvement in financial management and internal controls to help
    assure that the Government has reliable financial information and to deter fraud,
    waste, and abuse of Government resources. The Federal Financial Management
    Improvement Act of 1996 requires agencies to implement and maintain financial
    management systems that are in substantial compliance with:

           •   Federal financial management system requirements,

           •   Federal accounting standards, and

           •   U.S. Government Standard General Ledger at the transaction level.

    Acquisition Guidance. DoD Directive 5000.1, “The Defense Acquisition
    System,” May 12, 2003, provides management principles and mandatory
    procedures for managing DoD acquisition programs. The Defense Acquisition
    System is a management process designed to provide effective, affordable, and
    timely systems to users. DoD Instruction 5000.2, “Operation of the Defense
    Acquisition System,” May 12, 2003 provides “a simplified and flexible
    management framework for translating mission needs and technology
    opportunities, based on approved mission needs and requirements, into stable,
    affordable, and well-managed acquisition programs.” The Federal Acquisition
    Regulation (FAR) provides rules and guidance on acquisition contracts by Federal
    agencies. Appendix B provides further detail on acquisition and contract
    guidance.

    Army Financial Reporting. The FY 2006 Army General Fund Financial
    Statements reported total assets of $226.6 billion, total liabilities of $70.3 billion,
    and total budgetary resources of $229.4 billion. The Defense Finance and
    Accounting Service (DFAS) Indianapolis Operations began preparing Army
    financial statements in 1991 by compiling financial information from Army and
    DFAS sources. Auditors have issued disclaimers of opinion on the Army General
    Fund financial statements each year, including FY 2006, because the lack of
    integrated, transaction-driven, financial management systems prevents the Army
    from preparing auditable financial statements. Therefore, the Army needs to
    implement a modern financial capability to streamline the Army’s current
    portfolio of overlapping and redundant finance and accounting systems.

    General Fund Enterprise Business System. The General Fund Enterprise
    Business System (GFEBS) is a financial management system the Army is
    developing so that it can obtain a clean audit opinion and improve accuracy of
    financial information. The Army developed the GFEBS program to meet an
    Office of the Secretary of Defense goal for the Military Services to comply with
    the Chief Financial Officers Act and the Federal Financial Management
    Improvement Act of 1996 by FY 2007. At the time of this audit, the Army’s
    target date for having auditable financial statements for the Army General Fund
    was FY 2011. In September 2007, the Army’s target date for auditable financial
    statements changed to FY 2017.



                                           1

Army’s primary objectives for developing GFEBS are to:

       •	 improve financial performance,

       •	 standardize business processes,

       •	 ensure that capability exists to meet future financial management
          needs, and

       •	 provide Army decision makers with relevant, reliable, and timely
          financial information.

The FY 2005 National Defense Authorization Act required that DoD establish a
Defense Business Systems Management Committee (Systems Management
Committee). The Systems Management Committee approves system investment
decisions. This act stated that DoD-appropriated funds may not be obligated for a
business system modernization with costs exceeding $1 million, unless the
appropriate authority certifies the system, and the certification is approved by the
Systems Management Committee. The Under Secretary of
Defense (Comptroller)/Chief Financial Officer (USD [C]/CFO) is the certification
authority for GFEBS.

The GFEBS program includes two contracts, valued at a total of $556.2 million,
for system integration and program management support services. The life-cycle
cost estimate for GFEBS, which includes anticipated costs for the initial system
investment, system operation and support, and existing systems phase-out, is
$2.5 billion. The following table describes the systems that were relevant to the
GFEBS program as of May 2006.


                       Table 1. Systems Relevant to GFEBS

                 Description                         Number of Systems

 System functions replaced by GFEBS                           77

 System functions replaced by a system other                  19
 than GFEBS

 System functions not replaced by GFEBS or                    51
 any other existing systems

 System functions that require further                        61
 analysis

 Total number of systems relevant to the                     208
 GFEBS program


System Integration. The Army awarded a $516.2 million system integration
contract on June 28, 2005. The contract’s period of performance consists of
1 base year with 9 option years. The Army awarded the contract as part of the
DoD Enterprise Software Initiative. The Enterprise Software Initiative, a DoD
                                     2
           effort to standardize the acquisition process for commercial off-the-shelf (COTS)1
           software and associated system integration services, has established a blanket
           purchase agreement (BPA) with five vendors for system integration services
           (system integrators). A BPA is a simplified method of filling anticipated
           repetitive needs for commercial supplies or services by establishing “charge
           accounts” with qualified vendors.

           The contract includes the purchase of a COTS enterprise resource planning
           system (ERP)2 and system integration services. System integration services span
           full system life-cycle activities and include:

                    •   designing, building, and testing;

                    •   customizing GFEBS software;

                    •   developing external interfaces;

                    •   converting data; and

                    •   implementing and deploying the system.

           Program Management Support Services. The Army awarded a $40 million
           program management support services contract on April 25, 2005. The
           management support contract has a 5-year period of performance. The purpose of
           the management support contract is to provide specialized change management
           planning (helping the organization transition to the new system), ERP oversight,
           and program management support services to guide the GFEBS program.


Objectives
           Our overall audit objective was to determine whether the Army properly justified
           GFEBS and identified system requirements. We also examined internal controls
           over the development of GFEBS and evaluated the effectiveness of management’s
           assessment of internal controls as it related to the audit objective. See
           Appendix A for a discussion of the scope and methodology and for prior coverage
           related to the objectives.


Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, require DoD organizations to implement a comprehensive



1
    “Commercial off-the-shelf” refers to a previously developed item used for governmental or
    nongovernmental purposes by the public, nongovernmental entities, or a Federal agency, state, or local
    government.
2
    Enterprise resource planning systems are software systems designed to support and automate key
    operational processes.

                                                       3

           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the effectiveness of the controls.3

           Scope of the Review of Management Control Program. We reviewed the
           adequacy of the internal controls over the development of GFEBS. We also
           reviewed the adequacy of management’s self-evaluation of those controls.

           Adequacy of Management Controls. We did not identify any internal control
           weaknesses in the GFEBS program, as defined by DoD Instruction 5010.40.
           However, the Army did not adequately follow existing policies on defining the
           GFEBS program requirements (Finding A). In addition, the Office of the Under
           Secretary of Defense for Acquisition, Technology, and Logistics (OUSD
           [AT&L]) and the Army did not follow existing policies on acquisition
           methodologies (Finding B) or ensure that the GFEBS program was adequately
           justified (Finding C).

           Adequacy of Management’s Self-Evaluation. Management did not identify or
           report any management control weaknesses related to the GFEBS program. As of
           FY 2006, the Program Executive Office Enterprise Information Systems
           (PEO EIS) had not identified GFEBS as an assessable unit. PEO EIS identified
           GFEBS as an assessable unit in FY 2007. However, the Army has identified
           financial management systems as a material weakness—specifically the:
                    •	 lack of audit trails,

                    •	 lack of U.S. Standard General Ledger transaction accounting, and

                    •	 use of large unsupported adjustments made to the Army General Fund
                       accounting records.

           The Army has reported GFEBS as a partial solution to financial management
           system weaknesses.




3	
     Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
     Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
     Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
     Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on
     January 4, 2006.
                                                     4

           A. Program Planning
           The Army did not effectively plan the acquisition of the GFEBS system
           integration services. The Army’s planning was ineffective because it did
           not adequately define program requirements for potential bidders.
           Specifically, the Army did not:

                   •	 sufficiently describe the resource requirements for system
                      interfaces, or
                   •	 adequately develop data conversion processes.

           As a result, potential bidders did not have sufficient information to prepare
           reliable bids on the GFEBS system integration contract, which places
           GFEBS at high risk for incurring schedule delays and exceeding planned
           costs. In addition, the Army risks implementing a system that does not
           meet program objectives.


DoD Policy
    The Defense Procurement and Acquisition Policy “Contract Pricing Reference
    Guide,” Volume 1, Chapter 7, “Account for Differences,” states that requirements
    include any element that defines what the contractor must do to complete the
    contract successfully. The price offered by a potential bidder reflects their
    understanding of the requirements.


Defining Program Requirements
    The Army did not adequately define GFEBS program requirements for potential
    bidders (system integrators). Specifically, the Army did not provide a clear and
    concise description of its system requirements in the request for quotation (RFQ).
    An RFQ is an invitation extended to a vendor or contractor by a purchasing
    organization to submit a quotation, or bid, for the supply of materials or
    performance of services. The RFQ should describe program requirements to
    potential bidders. The purchasing organization then can evaluate the potential
    bidders by determining their ability to meet the requirements as described in the
    RFQ.

    The statement of objectives (SOO), an element of the RFQ, describes the products
    and services the purchasing organization requires. In other words, the purchasing
    organization uses the SOO to communicate the program objectives to the
    potential bidders. The Army incorporated the SOO into the contract as its
    statement of work. FAR Part 37.602-1, “Statements of Work,” says that the
    statement of work must define requirements in clear, concise language identifying
    specific work to be accomplished. Also, according to the “DoD Handbook For
    Preparation of Statement of Work,” the SOO should provide potential bidders
    with enough information and detail to structure a sound program. However, the
    SOO for the GFEBS program included 16 requirements identified as “subject to
    change.” The following are examples of the SOO requirements subject to change:

                                         5

       •	 deployment locations,

       •	 system interfaces,

       •	 number of users,

       •	 transaction volumes,

       •	 amount of data to be converted,

       •	 implementation schedule, and

       •	 task order type, including method of contracting for items
          encompassed by system integrator services and application provider
          services.

The 16 requirements in the SOO are critical to the successful development of
GFEBS. A change in any of the 16 requirements would have a significant impact
on GFEBS development costs and implementation schedule. For example, a
change in deployment locations could affect the number of system interfaces,
which could then cause an increase in the number of users and transactions and,
ultimately, delay the date of conversion. Therefore, if the program requirements
are subject to significant changes, or are not clear, potential bidders will have
widely different interpretations of the program requirements. This may have been
the cause for the $409.1 million variance between the highest bid of
$707.6 million and the lowest bid of $298.5 million for the $516.2 million
GFEBS contract.

System Interfaces. The Army did not adequately identify the resource
requirements for system interfaces. Specifically, the Army did not provide a
complete inventory of the systems that GFEBS would need to interface with or
replace and did not identify the subject matter experts for those systems.

         Inventory of Systems. The RFQ did not include a complete inventory of
the systems that GFEBS will need to interface with or replace. The Army was not
able to collect a complete universe of financial systems and did not provide all
identified system interfaces to potential bidders. The Army was just completing
the second phase of a two-phase Financial System Realignment and
Categorization (FINSRAC) study to identify financial systems when it issued the
RFQ in March 2005. According to PEO EIS personnel, the RFQ was prepared
earlier in the GFEBS acquisition process, but the Army did not issue it because of
a delay in approval of the GFEBS Acquisition Strategy. Then, the Army did not
update the RFQ to add the results of the FINSRAC study once the GFEBS
Acquisition Strategy was approved. As a result, the Army issued the RFQ
without the critical information FINSRAC could have provided.

The goal of the FINSRAC study was to collect information about the universe of
financial systems that the Army supported. The purpose of FINSRAC I, the first
phase of the study, was to identify the Army’s accounting and finance systems.
The Army completed FINSRAC I in October 2004, 5 months prior to issuing the
RFQ. The purpose of FINSRAC II, the second phase of the study, was to
increase participation and supplement the information collected in FINSRAC I,
and to identify the Army’s strategic planning and budgeting systems. During
FINSRAC I, 36 percent of the target organizations provided the information
requested. The percentage of organizations that completed the FINSRAC II
                                      6

information request increased to 44 percent. However, this level of participation
was inadequate and could impede the development of GFEBS. The Army needs
to hold organizations accountable for providing information to system integrators.
This information should include memorandums of agreement from the system
owners for each system interface. The Army should consider withholding
funding for systems whose owners do not provide needed information.

The RFQ identified 112 systems; however, it did not disclose 74 systems
identified in FINSRAC I or an additional 15 systems identified in FINSRAC II.
By excluding the results of the FINSRAC studies from the RFQ, the Army did not
provide potential bidders an accurate description of the true complexity of the
Army’s system architecture. According to GFEBS personnel, minimal
requirements information was available in developing the RFQ. GFEBS
personnel stated, “GFEBS followed a best-practices approach to ERP [Enterprise
Resource Planning] interfaces development by allowing the business process
analysis and reengineering efforts of the ERP implementation [system integrator
contract] to drive requirements for system interfaces.” GFEBS personnel also
said that the best practices they followed did not require the Army to identify the
system interface requirements prior to the RFQ. However, we believe that the
Army should have used the information available to provide bidders with a
complete inventory of the systems GFEBS would potentially need to interface
with or replace. See Appendix C for a listing of the 89 additional systems
identified in the FINSRAC studies that the Army did not include in the RFQ.

       Subject Matter Experts. The Army did not identify subject matter
experts (SMEs) for all potential system interfaces. The RFQ stated that the
contractor should assume limited availability of Government personnel for
functional and technical support. A system integrator needs SMEs to provide
information on current system functionality in order to plan system interfaces or
system replacements. The Army needed to identify SMEs and ensure a system
expert would be readily available prior to issuing the RFQ. Without SMEs, the
system integrator cannot incorporate the elements necessary for the interfaces to
communicate with each other. In addition, the system integrator could not ensure
that GFEBS would be capable of replacing the current system functionality. For
GFEBS to succeed, the Army must direct system experts to make themselves
available. In addition to specific Army commands, such as Medical Command or
Forces Command, the Army will also need to identify SMEs from non-Army
organizations such as DFAS.

Data Conversion. The Army did not adequately identify the data conversion
processes required for GFEBS implementation. Data conversion is the
modification of existing data to enable it to operate with similar capabilities in a
different environment. It is a significant part of the financial system
implementation in terms of workload, complexity, risk, and cost and is one of the
most frequently underestimated tasks. The Army should have considered its
conversion strategy, methodology, resources, and timeliness early in the planning
of GFEBS. Inadequate planning for data conversion processes may lead to
long-term repercussions, including failure to meet program objectives. The Army
needs to prepare a detailed data conversion plan within 30 days of completing a
blueprint of GFEBS. This blueprint should outline the target solution and
document the design decisions for the application, technology, process, and
training required to support the GFEBS program.

The Army did not follow the best practices described in the Joint Financial
Management Improvement Program white paper, “Financial System Data
                                     7

           Conversion—Considerations,” December 2002 (the White Paper).4 This
           best-practices guidance provides data conversion topics that program managers
           should address when planning or implementing a new financial management
           system. For example, the White Paper addresses the following elements to be
           included in a comprehensive, detailed conversion plan:

                    •	 the scope of conversion,

                    •	 the specific transactions and data to be converted,

                    •	 the existing data to be archived, and

                    •	 the systems impacted by the conversion.

           The Army identified the scope of the data conversion in the RFQ and stated that it
           did not intend to convert all historical data; however, the Army did not specify the
           existing data to archive or the systems affected by the conversion. In addition,
           through the RFQ, the Army required the system integrator to develop a data
           conversion plan that specified and justified what data to convert from the existing
           systems that GFEBS is to replace. The Army should have identified the items
           listed in the White Paper early in the planning process and not relied on the
           system integrator to perform these tasks.

                   Existing Systems. The Army did not develop a definitive plan for
           phasing out the data in existing Army systems. The RFQ stated that data
           conversion relates to extracting appropriate data from existing systems into
           GFEBS, but it did not provide the detail needed for the system integrator to
           determine which data were appropriate. However, as data conversion is a critical
           task, the Army should have developed a definitive plan in the early stages of the
           program before awarding the system integration contract.

                   Data Cleansing. The Army did not determine the level of data cleansing
           required for each system GFEBS will replace prior to issuing the RFQ. The RFQ
           defines data cleansing as a process of removing errors and inconsistencies within
           the existing data, standardizing or consolidating common data among multiple
           systems, and removing unnecessary data. The RFQ stated that the contractor was
           to develop a data-cleansing strategy that specified how the contractor would
           resolve data quality issues before conversion. However, the RFQ did not provide
           adequate information on the number of systems and the scope of cleansing
           required. For example, the contractor recently subcontracted out a study to
           review the quality and quantity of the property, plant, and equipment data. The
           objective of the study was to:

                    •	 inventory a sample of real property and general equipment at
                       Fort Hood;

                    •	 establish general ledger values reflecting depreciation, capital
                       improvements, and other factors affecting financial value;

                    •	 create documentation to substantiate the general ledger values; and


4
    A copy of the White Paper can be obtained from
    http://www.fsio.gov/fsio/fsiodata/fsio_otherreports.shtml.
                                                       8

                    •    present the recommended changes to the Army.

           Although the Army should have determined the condition of its existing data prior
           to issuing the RFQ, it still has not determined the amount of data that it needs to
           convert or cleanse.


Schedule and Cost Impact
           GFEBS has already incurred schedule delays, and inadequately defined system
           requirements increase the risk for additional schedule delays and exceeding
           planned costs. In addition, the Army risks implementing a system that does not
           meet program objectives. Requirements guide the blueprint that system
           developers and program managers use to design, develop, acquire, and evaluate a
           system. Improperly defined or incomplete requirements can cause system
           failures, such as systems not meeting their costs, schedules, or performance goals.
           Well-defined requirements provide the foundation for system evaluation and
           testing. Inadequately defined requirements prevent an organization from
           implementing a disciplined testing process to determine whether a system meets
           program objectives and performance goals. Without well-defined requirements,
           an organization is taking a significant risk that its testing efforts will not detect
           significant defects until after the organization places the system into production.

           The Army’s Logistics Modernization Program is an example of a program where
           inadequately defined requirements resulted in schedule delays, exceeding planned
           costs, and failure to meet program objectives. Government Accountability Office
           report number GAO-04-615, “DoD Business Systems Modernization,” May 2004,
           stated that the Army had not effectively managed its implementation of the
           Logistics Modernization Program. In addition, the Government Accountability
           Office found that the program’s requirements lacked the specific information
           needed to understand the required system functionality and did not describe how
           to determine whether the system would meet the Army’s needs. According to the
           report, Army officials have acknowledged that requirements and testing defects
           were factors contributing to operational problems as well as schedule slippages
           and cost increases. As a result of the operational problems, the Logistics
           Modernization Program’s original full operational capability5 date of FY 2004 is
           no longer valid. According to the September 2006 Enterprise Transition Plan,6
           the Logistics Modernization Program’s fourth anticipated deployment date is
           July 2010. In addition, the Government Accountability Office reported that the
           Army’s estimated cost for the program increased from $421 million in
           October 1999 to more than $1 billion in March 2004. If the Army does not
           effectively plan for the development and implementation of GFEBS, it could
           experience similar delays and exceed planned costs.

           Current Schedule Delays. The Army has already delayed the dates for GFEBS
           initial operational capability7 and full operational capability. The proposed

5
    A system reaches full operational capability when all organizations have received the system and have the
    ability to employ and maintain it.
6
    The Enterprise Transition Plan describes a systemic approach for the transformation of business
    operations within the DoD.
7
    A system reaches initial operational capability when a unit scheduled to receive the system has received it
    and has the ability to employ and maintain it.

                                                        9

August 2007 date for initial operational capability was delayed 16 months to
December 2008. The proposed December 2009 date for full operational
capability was delayed 7 months to July 2010. By February 2006, 8 months after
the Army awarded the contract, the GFEBS schedule had incurred a 7-week
delay. PEO EIS personnel partly attributed this delay to an aggressive schedule,
inconsistent subject matter expert participation, and new requirements added by
the Business Transformation Agency. PEO EIS personnel stated that the
remaining delays were because the Army added time to the GFEBS
implementation schedule to allow for additional planning and analysis that was
prompted by information learned during the initial phase and because of
Congressional budget cuts. The Army needs to evaluate, and possibly adjust, its
current target dates to ensure that all needed planning is completed prior to
continuing with the GFEBS implementation.

Future Schedule Delays. Changes in the implementation schedules for the many
developing systems with which GFEBS will be required to interface may also
impact the GFEBS implementation schedule and costs. For example, between
September 2005 and September 2006, the Army delayed the full operational
capability date for the Global Combat Support System-Army by 3 years and
10 months. The Army is developing the Global Combat Support System-Army to
provide the warfighter with a flow of timely, accurate, and secure information on
tactical logistics (the movement of troops and battlefield supplies). Once this
system obtains full operational capability, it should allow the Army to retire
11 existing systems supporting tactical logistics. The Global Combat Support
System-Army was originally supposed to attain full operational capability in
March 2010, which was prior to the full operational capability date planned for
GFEBS. The current full operational capability date for the Global Combat
Support System-Army is now January 2014, three years after the current full
operational capability date for GFEBS. As a result, there could be delays
resulting from additional interface requirements for GFEBS with systems that the
Global Combat Support System-Army was originally going to interface with or
replace. Figure 1 illustrates a timeline of major events in the GFEBS acquisition
process.




                                   10 

                                           GFEBS                   GFEBS        GFEBS
                                           IOC                     FOC          FOC
                                           (original) -            (original)   (current)
                                           August                  December     July
                       RFQ -               2007                    2009         2010
                       March 2005



 2003                       2005          2007                    2009                      2011   2013


OSD directs Services       GFEBS                          GFEBS IOC        GCSS-A                         GCSS-A
to comply with CFO         Contract                       (current) -      FOC                            FOC
Act by 2007 -              Award -                        December         (original)                     (current)
November 2003              June 2005                      2008             March 2010                     January 2014



CFO         Chief Financial Officers
FOC         Final Operational Capability
GCSS-A      Global Combat Support System - Army
IOC         Initial Operational Capability
OSD         Office of the Secretary of Defense


Figure 1. GFEBS Timeline


Conclusion
          Because GFEBS is at high risk for incurring schedule delays, exceeding planned
          costs, and not meeting program objectives, the program needs management
          oversight from the highest levels of the Under Secretaries of Defense for
          Acquisition, Technology, and Logistics and (Comptroller)/Chief Financial Officer
          and the Army. Completely and accurately defining program requirements and
          blueprinting the system are critical, because GFEBS will interface with or replace
          at least 208 systems (with an unknown number of feeder systems) and will
          include at least 79,000 users at more than 300 DoD installations. In August 2005,
          the Office of Management and Budget established a High-Risk Information
          Technology Projects list to help ensure that agencies and programs were meeting
          their intended goals and producing results. Projects on the High-Risk Information
          Technology Projects list are not necessarily “at risk,” but require special attention
          from the highest level of agency management because of the following factors.

                         •	 The agency has not consistently demonstrated the ability to manage
                            complex projects.

                         •	 The project has exceptionally high development, operating, or
                            maintenance costs.

                         •	 The project is being undertaken to correct recognized deficiencies in
                            the adequate performance of an essential mission program or function
                            of the agency, a Component of the agency, or another organization.


                                                           11

           •	 A delay or failure in the project would introduce unacceptable or
              inadequate performance or failure of an essential mission function of
              the agency, a Component of the agency, or another organization.

    The Army is developing GFEBS to obtain a clean audit opinion on the Army’s
    financial statements, which is an essential mission function of the Army. As
    such, the GFEBS program meets the Office of Management and Budget definition
    of a high-risk program and should be included in the DoD quarterly assessment
    on the performance of high-risk projects. In addition, the Government
    Accountability Office has identified DoD Business Systems Modernization as a
    high-risk area.


Management Actions
    The Army has taken steps to identify interfaces and provide needed resources that
    it did not initially provide. GFEBS personnel have completed a list of the
    systems that GFEBS will need to interface with or replace, as of May 2007. Prior
    to issuing the RFQ, the Army had not identified the SMEs required for system
    interfaces. However, according to GFEBS personnel, although the system
    integrator required only 36 SMEs, the Army had provided the names
    of 249 SMEs (as of June 12, 2007).


Recommendations, Management Comments, and Audit
  Response
    Revised and Redirected Recommendations. Based on the Director, Defense
    Procurement and Acquisition Policy, OUSD (AT&L) comments, we redirected
    Recommendation A.1. to the Assistant Secretary of Defense for Networks and
    Information Integration/Chief Information Officer (ASD [NII/CIO]). In addition,
    we revised Recommendation A.2.c. to clarify the timeframe for completing the
    data conversion plan.
    A.1. We recommend that the Assistant Secretary of Defense for Networks
    and Information Integration/Chief Information Officer coordinate with
    Office of Management and Budget personnel to add the General Fund
    Enterprise Business System program to the High-Risk Information
    Technology Projects list.

    Management Comments. The Director, Defense Procurement and Acquisition
    Policy, OUSD (AT&L) partially concurred and stated that the ASD (NII/CIO),
    not USD (AT&L), is responsible for the list within the Office of the Secretary of
    Defense. Therefore, we redirected the recommendation to the ASD (NII/CIO)
    and requested that they provide comments in response to the final report.

    A.2. We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller) provide support to the General Fund
    Enterprise Business System program through the following actions.



                                        12 

      a. Withhold funding for systems whose owners do not provide the
information concerning system functionality necessary to integrate the
General Fund Enterprise Business System.

Management Comments. The Assistant Secretary of the Army (Financial
Management and Comptroller) concurred and stated that the information
concerning system functionality has been provided by system owners and
Government SMEs; therefore, the Army has not had to resort to withholding
funding. However, they will retain this option, as required, as they go forward.
No additional action is required on this recommendation.

Although not required to comment, the Director, PEO EIS, agreed with the
recommendation and reiterated the information contained in the Assistant
Secretary of the Army (Financial Management and Comptroller) response.

      b. Identify subject matter experts for all potential system interfaces
and commit personnel to the project for the duration of the project.

Management Comments. The Assistant Secretary of the Army (Financial
Management and Comptroller) concurred and stated that the Army understood
that government staff participation in solution design is critical to the success of
GFEBS. The Army executive leadership ensured that necessary functionality was
integrated into GFEBS by placing a significant emphasis on securing participation
of subject matter experts from a wide range of organizations. Army comments
are responsive to the recommendation and the action is considered complete.

Although not required to comment, the Director, PEO EIS, stated that the Army
had provided the names of 249 SMEs to the system integrator. Additional details
are provided in the “Management Actions” section.

      c. Prepare a detailed data conversion plan within 30 days of
completing the blueprint of the General Fund Enterprise Business System.

Management Comments. The Assistant Secretary of the Army (Financial
Management and Comptroller) concurred and stated that the blueprint phase
dictates which conversion activities should be undertaken, which ties the
conversion plan directly to the blueprinting process. Therefore, a data conversion
plan will be completed within 30 days of completing the blueprint.

Although not required to comment, the Director, PEO EIS, disagreed with
Recommendation A.2.c. as originally written. The Director stated that the data
conversion plan would be prepared after the GFEBS blueprint was complete. The
Director’s comments are consistent with the requirements of the revised
recommendation.

Audit Response. We consider the comments to be responsive. The blueprint
phase was scheduled to be completed by September 30, 2007. We will review the
data conversion plan to ensure that the issues identified in the finding are
addressed.

      d. Evaluate current timeframes for the General Fund Enterprise
Business System program and adjust to accomplish the actions in this
recommendation.


                                    13

Management Comments. The Assistant Secretary of the Army (Financial
Management and Comptroller) concurred and stated that after evaluating their
current timeframes, they determined that the current schedule meets the intent of
the recommendation.

Although not required to comment, the Director, PEO EIS, reiterated the
information contained in the Assistant Secretary of the Army (Financial
Management and Comptroller) response.

Audit Response. After reviewing the Defense Financial Improvement and Audit
Readiness Plan and the Army Chief Financial Officer Strategic Plan, we
determined that the Army had adjusted the GFEBS timelines. As such, we
consider the comments to be responsive. We plan to continue monitoring the
GFEBS program to ensure that the implementation meets the established
timeframes.




                                    14 

           B. Commercial Item Acquisition 

           The Army inappropriately used a blanket purchase agreement (BPA) to
           contract for services to design, develop, integrate, and implement GFEBS.
           The Army used this improper contracting method because the Office of
           the ASD (NII/CIO) required the use of the BPA for new ERP
           implementations. As a result, the GFEBS system integration contract
           lacked controls that would have been required if the Army had used a
           cost-reimbursement contract. In addition, the Army incurred about
           $3.9 million in unnecessary fees and did not comply with the DoD
           Financial Management Regulation.


Government Contracting
    DoD has a variety of contract types Defense organizations can choose from to
    purchase supplies and services. When selecting a contract type, the objective is to
    choose the contract type that will result in a reasonable contractor risk and
    provide the contractor with the greatest incentive for efficient and economical
    performance. Complex requirements, particularly those in research and
    development contracts where performance uncertainties or the likelihood of
    changes make it difficult to estimate performance costs in advance, usually result
    in greater risk assumption by the Government. The FAR classifies contracts into
    two broad categories: fixed-price contracts and cost-reimbursement contracts.

    Fixed-price Contracts. Fixed-price contracts allow the purchaser to establish a
    firm price or an adjustable price. Fixed-price contracts providing for an
    adjustable price may include a ceiling price, a target price, or both. These
    contracts include firm-fixed-price, fixed-price with economic price adjustment,
    and fixed-price incentive. A fixed-price contract provides incentive for the
    contractor to control costs. According to the FAR, the contracting officer must
    use firm-fixed-price contracts or fixed-price contracts with economic price
    adjustment when acquiring commercial items. The FAR defines a commercial
    item as:

           •	 any item customarily used for nongovernmental purposes that has been
              sold, leased, or licensed to the general public or that has been offered
              for sale, lease, or license to the general public;

           •	 an item that evolved from a commercial item as described in the first
              bullet;

           •	 an item that meets the description from the first bullet, but with minor
              modifications to meet DoD needs or modifications of a type normally
              done for commercial customers; or

           •	 any combination of items meeting the commercial item descriptions
              above.

    The GFEBS system integrator contract primarily includes contract line items that
    are fixed-price. Contract line items identify an item of supply or service on a
    contractual document.

                                        15

           Cost-reimbursement Contracts. Cost-reimbursement contracts provide for
           payment of allowable incurred costs to the extent stated in the contract. These
           contracts establish an estimate of total cost for obligating funds and a ceiling cost
           that the contractor may not exceed without the approval of the contracting officer.
           Cost-reimbursement contracts are suitable when uncertainties involved in contract
           performance do not permit organizations to estimate costs with sufficient
           accuracy to use a fixed-price contract. Under cost-reimbursement contracts, the
           Government can audit costs incurred by the contractor for compliance with Cost
           Accounting Standards, the Truth in Negotiations Act, FAR, and the contractor’s
           internal control systems.


Blanket Purchase Agreement
           The Army inappropriately used the BPA to contract for system integrator
           services. Examples of why the BPA was inappropriate include the following:

                   •	 the system integration contract did not fit the definition of commercial
                      services;

                   •	 program risks were too high to justify the use of a fixed-price contract;
                      and

                   •	 the program scope was too large, undefined, and complex to use the
                      BPA for system design, development, integration, and implementation.

           Commercial Services Definition. The GFEBS contract did not fall within the
           FAR definition of commercial services. Commercial services are bought to
           support commercial items and are sold competitively in the commercial market
           for specific tasks or outcomes. The Army issued the GFEBS system integrator
           contract under the BPA, as if the system integration services were commercial.
           FAR Part 8.4, “Federal Supply Schedules,” regulates the BPA. The Federal
           Supply Schedule provides agencies with a simplified process for obtaining
           commercial supplies and services at volume prices. The prices for services under
           the Federal Supply Schedule are either at hourly rates or at a fixed-price for
           performance of a specific task. The Army should not have used the BPA because
           the GFEBS contract, while containing some commercial elements, does not fit the
           definition of commercial services, and the RFQ did not identify specific tasks or
           outcomes for the contractor to perform.

           Although the GFEBS core system is a COTS system, this does not make the
           entire effort a commercial purchase.8 The purchase of the COTS system software
           licenses only accounts for $34.6 million, or 6.7 percent, of the $516.2 million in
           contract costs. The remaining contract costs relate to the system integration
           services.

           The system integrator requirements contained in the RFQ did not contain specific
           tasks to perform or specific outcomes to achieve. As stated in Finding A, the
           RFQ did not adequately define GFEBS program requirements. In addition, the

8
    DoD Office of Inspector General Report No. D-2006-115, “Commercial Contracting for the Acquisition
    of Defense Systems,” September 29, 2006, states that a small portion of a program being commercial
    does not justify considering the entire effort commercial.
                                                   16 

SOO, which the Army incorporated into the contract, did not provide specific
descriptions of the tasks system integrators should perform. For example, the
SOO did not provide adequate descriptions of the effort that will be required to
accomplish:

       •	 identification of existing financial and feeder systems,

       •	 analysis of system functionality,

       •	 design of the system,

       •	 development of system interfaces,

       •	 data cleansing and conversion, and

       •	 implementation of GFEBS.

On March 2, 2007, the Director of Defense Procurement and Acquisition Policy
issued a memorandum to the military services requiring a commercial item
determination. The memorandum states that contract files must “fully and
adequately document” the market research and rationale supporting a conclusion
that the FAR 2.101 definition of a commercial item has been satisfied for all
acquisitions valued at over $1 million. Prior to March 2, 2007, the Army was not
required to conduct a commercial item determination. In light of this new
guidance, Army contracting officers should conduct a commercial item
determination for GFEBS to assess whether GFEBS system integration services
meet the FAR definition of a commercial item.

Program Risks. GFEBS program risk was too great to justify the use of a
fixed-price contract. As discussed in Finding A, the GFEBS contract is at high
risk because:

       •	 the RFQ did not adequately describe system requirements and will rely
          on the contractor to define these system requirements,

       •	 GFEBS meets the Office of Management and Budget’s definition of a
          high-risk program, and
       •	 the wide range between the highest bid of $707.6 million and the
          lowest bid of $298.5 million for the system integrator contract
          indicates that realistic and equitable pricing was difficult to determine.

Defense Federal Acquisition Regulation Supplement Part 235, “Research and
Development Contracting,” states that fixed-price contracts should not be used
unless the level of program risk permits: (1) realistic pricing and (2) an equitable
and sensible allocation of program risk between the Government and the
contractor. In addition, the Defense Federal Acquisition Regulation Supplement,
Part 235 requires a written determination from the Under Secretary of Defense for
Acquisition, Technology, and Logistics (USD [AT&L]) that the program risk
meets these two criteria. However, personnel in the OUSD (AT&L) stated that
there was no written determination of program risk prepared for GFEBS.

Program Scope. The scope of the GFEBS program was too large, undefined, and
complex to justify use of the BPA for system design, development, integration,
and implementation. The BPA describes a complex system integration and
                                     17

           implementation as anything greater than 201 users at 4 to 8 business locations.
           However, GFEBS will interface with or replace at least 208 systems (with an
           additional unknown number of feeder systems) and include 79,000 users at more
           than 300 DoD installations. In addition to the number of systems and users
           exceeding the BPA’s description of a complex system integration, the Army had
           not properly identified all the systems in the RFQ. Finally, the GFEBS program
           requirements included many unknowns and variables. For example, the Army
           plans to use $240 million in Research, Development, Test, and Evaluation
           (RDT&E) funds to design and develop requirements for GFEBS. GFEBS system
           integrators will have to determine how numerous developing DoD and Army
           systems will affect the GFEBS implementation. GFEBS system integrators must
           also account for changes in these developing systems’ implementation schedules.


Requirement to Use BPA
           The ASD (NII/CIO) decided the Army should use the BPA as the contracting
           method for the GFEBS system integration services. ASD (NII/CIO) was the
           milestone decision authority9 for GFEBS. GFEBS personnel completed the
           acquisition strategy in August 2004; however, ASD (NII/CIO) did not approve it
           until March 2005. On May 31, 2005, the USD (C)/CFO provided the authority to
           obligate funds in support of the GFEBS acquisition. GFEBS contracting
           personnel stated that ASD (NII/CIO) had delayed the approval of the acquisition
           strategy until the Army agreed to use the BPA, which required a fixed-price
           contract. The Army wanted to use a cost-reimbursement contract for the GFEBS
           acquisition. The Assistant Secretary of the Army (Acquisition, Logistics, and
           Technology) stated that he tried to convince ASD (NII/CIO) and personnel in the
           OUSD (AT&L) to allow the use of a cost-reimbursement contract, but that he was
           unable to “sway his colleagues.” In order to continue with the GFEBS program,
           the Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
           agreed to use the BPA.

           ASD (NII/CIO) personnel stated that ERP software implementations must use the
           BPA because commercial vendors have established the methodologies for COTS
           software implementation, and the methodologies are repeatable. For example,
           ASD (NII/CIO) personnel stated that the five system integrator vendors involved
           with the BPA had implemented 18,000 COTS software packages for both
           commercial and Government clients. The Office of the Secretary of Defense
           required those DoD Components to use the BPA for COTS software
           implementations. For example, the BPA was used for the following COTS
           software implementations:

                    •   the Expeditionary Combat Support System,

                    •   the Defense Enterprise Accounting and Management System,

                    •   the Global Combat Support System-Marine Corps, and

                    •   the Common Food Management System.

9
    The milestone decision authority has overall responsibility for a program. The milestone decision
    authority has the authority to approve an acquisition program’s entry into the next phase of the
    acquisition process.
                                                      18 

The award amounts for these contracts, including GFEBS, totaled $1.3 billion.

The BPA may be acceptable for smaller, less complex projects; however, it is not
practical for programs such as GFEBS that do not fit into the BPA’s scope. The
OUSD (AT&L) should not use the BPA for future large and complex system
implementations requiring RDT&E funding. Also, the USD (C)/CFO should not
provide obligation authority to programs for future large and complex systems
implementations that use the BPA and require RDT&E funding. Because the
Army used the BPA to contract for GFEBS system integration services:

       •	 the contract lacked controls required in cost-reimbursement contracts,

       •	 the Army incurred about $3.9 million in unnecessary contract
          administration fees, and

       •	 the Army does not comply with the DoD Financial Management
          Regulation.

Contract Cost Controls. The GFEBS BPA contract lacked certain controls that
would normally be required in cost-reimbursement contracts. Due to the high risk
related to the program and the undefined requirements, the controls required in a
cost-reimbursement contract would be more appropriate for the GFEBS system
integration contract. The Army does not have access to data on
contractor-incurred costs because the BPA required the use of a fixed-price
contract. Fixed-price contracts do not require audits of the contract costs,
although the Defense Contract Audit Agency could audit any contract line items
that are not fixed-price through coordination with the GFEBS Program
Management Office. In contrast, with cost-reimbursement contracts, the
Government may review the contractor’s internal control system to determine
whether costs incurred by the contractor comply with Cost Accounting Standards,
the Truth in Negotiations Act, and the FAR. Therefore, if the Army had used a
cost-reimbursement contract, it would have greater ability to protect the
Government against possible overpricing for GFEBS system integrator services.

In this case, the Army arranged the contract line items into various
firm-fixed-price, fixed-price-incentive, time-and-materials, and cost line items.
Contracting office personnel stated that they had difficulty monitoring costs with
the original contract because of the contract’s complexity. Therefore, they
restructured the contract in an attempt to facilitate the monitoring of costs. The
contracting office modified the contract to reorganize the contract line items into
standard firm-fixed-price, time-and-materials, cost, and FY 2006 funding line
items. However, the documentation developed by the contracting office was not
detailed enough to allow the tracing of costs from the original contract line items
to the current contract line items, and we could not identify costs associated with
the contract line items.

Contract Administration Fees. The use of the BPA required the Army to incur
about $3.9 million in unnecessary contract administration fees. Contracts that use
the BPA are subject to a General Services Administration fee. As a result, the
Army will pay $3.6 million in General Services Administration fees over the life
of the GFEBS contract. There is an additional fee, equal to 2 percent of the
contract price, charged to the Army for awarding, administering, and managing
the BPA. Navy receives 1 percent of this fee, and the remaining 1 percent is paid
to the Component that places the order for services. For the GFEBS contract, the

                                     19

    Army waived its 1 percent fee and negotiated with the Navy to decrease its fee to
    $25,000 for each year of the contract. If the Army exercises all of the option
    years, the Navy fee will total $0.3 million.

    Contract Funding. The milestone decision authority’s decision to use the BPA
    resulted in the Army not complying with the DoD Financial Management
    Regulation. The DoD Financial Management Regulation, Volume 2A, Chapter 1
    states that DoD Components should fund all commercial acquisitions with
    Procurement or Operations and Maintenance appropriations. However, if the
    acquisition requires RDT&E funding, the entire acquisition is not commercial.
    The Army obligated $85.6 million in RDT&E funds for FYs 2005 and 2006 for
    the GFEBS acquisition. The Army plans to obligate an additional $154.4 million
    in RDT&E funds for FYs 2007 through 2009. Although GFEBS does not fit the
    definition of commercial services, the Army issued the contract under the BPA as
    if the program were a commercial acquisition, as decided by ASD (NII/CIO).
    The Army appropriately used RDT&E funds, because the activities performed
    under the GFEBS contract were for development and design of the system. If the
    Army had complied with DoD Financial Management Regulation, Volume 2A,
    Chapter 1 by using Procurement or Operations and Maintenance appropriations, it
    would have violated the purpose statute of the Antideficiency Act.


Recommendations, Management Comments, and Audit
  Response
    Revised and Renumbered Recommendations. As a result of management
    comments, we revised Recommendations B.1.a. (now B.1.a. and B.1.b.) and B.2.
    to clarify their intent. We also revised the recommendations to demonstrate the
    need within DoD for acquisition policy that limits commercial acquisitions to
    items that are non-developmental as defined in section 403, title 41, United States
    Code (41 U.S.C. 403) and Federal Acquisition Regulation Part 2.101. Draft
    Report Recommendation B.1.b. was renumbered and is now Recommendation
    B.1.c.

    B.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

            a. Establish policy that is consistent with sections 403 and 437,
    title 41, United States Code, that states if and under what conditions
    Research, Development, Test, and Evaluation funding can be used for
    commercial items and services.

          b. Discontinue use of blanket purchase agreements, such as the
    Enterprise Software Initiative, as the contract vehicle for system integration
    contracts or task orders exceeding $25 million that require Research,
    Development, Test, and Evaluation funding.

    Management Comments. The Director, Defense Procurement and Acquisition
    Policy, OUSD (AT&L) nonconcurred with Recommendations B.1.a. and B.1.b.
    The Director stated that the DoD Enterprise Software Initiative systems
    integration BPA approach for acquiring COTS information technology products
    and related integration services is one of the tools available when program
    requirements have been sufficiently defined to permit realistic fixed pricing of
                                        20 

system integration contracts. The Director indicated that the vehicles facilitate
more efficient buying of system integration services and that risks associated with
these efforts can be mitigated. He further stated that although GFEBS may not
have performed sufficient up-front work prior to award, it is not appropriate to
draw a general conclusion concerning this type of contractual vehicle based on
this one program.

        Assistant Secretary of Defense for Networks and Information
Integration/Chief Information Officer Comments. Although not required to
comment, the ASD (NII/CIO) stated that the implementation of
Recommendations B.1.a., B.1.b., and B.2. would not be in the Department’s best
interest. The ASD (NII/CIO) indicated the implementation of these
recommendations would have negative consequences for ERP systems currently
trying to use the DoD Enterprise Software Initiative systems integration BPA. He
stated that the audit seemed to confuse the Enterprise Software Initiative systems
integration BPAs with “fixed-price contracts.” The ASD (NII/CIO) indicated that
customer issued delivery orders, which required use of both fixed-price, including
various incentives, and time-and-materials are used in the DoD Enterprise
Software Initiative systems integration BPA.

        Business Transformation Agency Comments. Although not required to
comment, the Director, Business Transformation Agency, also disagreed with
Recommendations B.1.a. and B.1.b. The Director stated that it is inappropriate to
assume that because the GFEBS program struggled with various aspects of the
Enterprise Software Initiative system integration BPA, other similar programs
will also struggle with those aspects. The Director conceded that the report raised
legitimate questions about the Enterprise Software Initiative system integration
BPA that had been brought to his attention by several other programs. The
Director stated that the nature of ERP programs requires a discovery phase in the
early cycles of the implementation and indicated that conducting this portion of
the program under fixed-price parameters is highly problematic. He felt that the
GFEBS program suffered because it predominantly used fixed-price parameters
from the very beginning of the program. The Director also stated that it is
acceptable to use RDT&E funding for significant portions of the system
implementations even after requirements have been fully defined.

       Program Executive Office Enterprise Information Systems
Comments. Although not required to comment, the Director, PEO EIS, agreed
with the recommendations.

Audit Response. The Director, Defense Procurement and Acquisition Policy,
OUSD (AT&L) comments are not responsive to Recommendations B.1.a.
and B.1.b. A commercial item is defined as a “nondevelopmental item” in
41 U.S.C. 403. Because design and development are required for GFEBS, the
acquisition is not commercial. Acquisitions that use RDT&E funds because the
effort is developmental do not fit the U.S.C. definition of a commercial
acquisition. BPAs are for commercial items and services that are
non-developmental. Section 437, title 41, U.S.C., does allow contracts or task
orders that do not exceed $25 million to be treated as a contract for the
procurement of commercial items, if they meet specific guidelines. Any system
integration effort above $25 million that requires RDT&E funding cannot be
considered a commercial item and cannot use the Enterprise Software Initiative
system integration BPA. The OUSD (AT&L) should provide clear and concise
policy on these issues that is in accordance with U.S.C.

                                    21

The FAR requires that commercial acquisitions, including items procured under a
BPA, use a firm-fixed-price contract, with an allowance for a limited number of
time-and-materials line items. We do not agree that it is acceptable to use
RDT&E funding on a commercial acquisition. As discussed above, commercial
acquisitions must be for nondevelopmental items. Although the later phases of
the GFEBS system integration are commercial, the entire effort will require
extensive development. Any system acquisition that requires a developmental
effort cannot be considered a commercial acquisition unless it meets the
guidelines specified under section 437, title 41, U.S.C. An acquisition in excess
of $25 million that must use RDT&E funding cannot be considered a commercial
acquisition. The GFEBS system integration effort will require approximately
$240 million in RDT&E funding. We request that the Director reconsider his
position and provide comments on the final report.

        c. Provide written commercial determination to justify that the item
or service being procured using General Services Administration blanket
purchase agreements meets the Federal Acquisition Regulation 2.101
definition of a commercial item for all acquisitions valued at over $1 million.

Management Comments. The Director, Defense Procurement and Acquisition
Policy, OUSD (AT&L) concurred with this recommendation and stated that
contracting officers must provide the written commercial determinations to
comply with the March 2, 2007, Defense Procurement and Acquisition Policy
memorandum.

Although not required to comment, the Director, PEO EIS, agreed with the
recommendation.

Audit Response. The Director, Defense Procurement and Acquisition Policy,
OUSD (AT&L) comments are partially responsive. We request that the Director
provide a description of how the requirements of the March 2, 2007, Defense
Procurement and Acquisition Policy memorandum will be implemented for BPAs
in comments to the final report.

B.2. We recommend that in the future the Under Secretary of Defense
(Comptroller)/Chief Financial Officer not provide obligation authority to
programs planning to use the Enterprise Software Initiative Blanket
Purchase Agreement for large and complex system implementations until
system requirements are fully defined and approved and the use of Research,
Development, Test, and Evaluation funding is no longer required.

Management Comments. The USD (C)/CFO did not comment on the original
recommendation. We request that the USD (C)/CFO provide comments on the
revised recommendation in response to the final report.

Although not required to comment, the Director, PEO EIS, agreed with the
recommendation.

B.3. We recommend that the Director, Program Executive Office Enterprise
Information Systems contact the Defense Contract Audit Agency to audit
contract line items that are not fixed-price.

Management Comments. The Director, PEO EIS, concurred with
Recommendation B.3.

                                   22 

Audit Response. The Director, PEO EIS, response was adequate; however, the
Director did not provide a date when this action will be completed. We request
that the Director provide an action date in response to the final report.




                                   23

                     C. Economic Analysis
                     The Army prepared an unrealistic economic analysis (EA) to justify the
                     GFEBS program. Specifically:

                              •	 the Army used unsupported and incomplete life-cycle cost
                                 estimates to determine the $1.4 billion in cost savings, and

                              •	 the Army used an inappropriate methodology to determine the
                                 estimated $3.9 billion in benefits for implementing GFEBS.

                     The EA was not realistic because the Army did not follow DoD guidance
                     for preparing it. In addition, the Army did not correct the EA to address
                     the concerns of the Office of the Secretary of Defense (Program Analysis
                     and Evaluation) (OSD [PA&E]). As a result, the Army did not provide
                     sufficient economic justification for the GFEBS program and did not
                     support its decision to invest more than $556.2 million in GFEBS. The
                     Army also does not have realistic baseline information needed to manage
                     the GFEBS program and to defend priorities and resource allocations. We
                     believe the Army could put the $532.5 million budgeted for GFEBS
                     contracts for FYs 2008 through 2013 to better use.


Economic Analysis Background
            All major automated information systems10 have documentation requirements,
            including the preparation of an analysis of alternatives, a cost analysis
            requirements description (CARD), and an EA. The analysis of alternatives
            presents and analyzes several alternatives for meeting program objectives and
            recommends one for the DoD Component to pursue.

            Cost Analysis Requirements Description. The CARD contains a description of
            the primary features of the program and the system being acquired. The CARD
            should be comprehensive enough to identify any area or issue that could
            significantly affect life-cycle costs. Life-cycle cost comprises total costs to the
            Government to acquire and own a system over the life of that system. The DoD
            Component uses the CARD as the basis for preparing program life-cycle cost
            estimates used in the EA.

            Economic Analysis. The purpose of the EA is to give the DoD decision maker
            insight into economic factors affecting the program objectives. The EA should
            document estimated costs and benefits for each feasible alternative and illustrate
            whether the alternative satisfies the program objective.

            Milestone Decision Authority. The milestone decision authority uses the
            analysis of alternatives, the CARD, and the EA when determining whether a
            program should proceed into the next phase of the acquisition process. The


10
     A system qualifies as a major automated information system when estimated program costs exceed
     $32 million in any single year, total program costs exceed $126 million, or total life-cycle costs exceed
     $378 million.
                                                        24 

            ASD (NII/CIO) was the initial milestone decision authority for GFEBS.
            However, in April 2006, the USD (AT&L) became the milestone decision
            authority for GFEBS.


Guidance
            DoD Directive 5000.1, “The Defense Acquisition System,” May 12, 2003,
            provides general policies and procedures for managing all acquisition programs.
            In addition, there are DoD instructions and a guide that address specific
            procedures for preparing an EA. For example, DoD Instruction 7041.3,
            “Economic Analysis for Decision Making,” November 7, 1995, provides
            guidance concerning the evaluation of decisions about the acquisition of programs
            or projects. This guidance requires that the preparer document the results of the
            EA, including all calculations and sources of data—down to the most basic
            inputs—to provide an auditable and stand-alone document.

            DoD organizations must support major automated information system decisions
            with an auditable analysis of estimated system costs and expected benefits over
            the life of the program. The Defense Acquisition Guidebook is guidance
            designed to complement other policy documents by providing the acquisition
            workforce with best practices that should be tailored to the needs of each
            program. The Defense Acquisition Guidebook states that the CARD should:

                     •	 stand alone as a readable document,

                     •	 make liberal use of references to the source documents, and

                     •	 make source documents readily available or provide them as an
                        appendix to the CARD.


Estimated Cost Savings
            The $1.4 billion in life-cycle cost savings the Army reported in the EA were
            unsupported or incomplete. As shown in table 2, the Army prepared detailed
            estimates for two alternatives: the Status Quo11 and the GFEBS implementation.
            The Status Quo involves no investment for system modernization.




11
     “Status Quo” is the term used in the Army’s EA to refer to the current method of performing general fund
     accounting functions using existing systems.

                                                      25

             Table 2. Economic Analysis: Total Life-Cycle Cost Estimates
                                    (in billions)

                                     Status Quo           GFEBS
       Cost Item                    Cost Estimate       Cost Estimate        Difference

 Investment costs1                     $    0.0            $   0.5              $      0.5

 System operations and                      0.4                0.9                     0.5
  support costs2

 Direct-billable-hours costs                3.5                1.0                     (2.5)

 Status Quo phase-out costs                 0.0                0.1                     0.1

     Total                              $   3.9            $   2.5              $ (1.4)
 1
 Includes costs for program management, development, procurement and implementation.
 2
 Includes system management, hardware and software maintenance, and site operations.



The Army computed the cost estimate for a 14-year period ending FY 2018.
However, the Army did not prepare a realistic EA as required by DoD
Directive 5000.1, which states that the DoD Components must plan programs
based on realistic cost projections. The estimated cost savings are unreliable
because the Army:

         •     did not support the cost estimates in the EA, and

         •     did not prepare complete cost estimates.

Cost Estimate Support. The Army did not have adequate supporting
documentation for $3.5 billion of the estimated Status Quo costs and $2.4 billion
of the estimated GFEBS costs. Table 3 provides a breakout of unsupported and
supported costs by alternative.




                                        26 

          Table 3. Breakout of Unsupported and Supported Costs
                              by Alternative

                         Status Quo                     GFEBS Cost
                        Cost Estimate                     Estimate
                         (in billions)      Percent     (in billions)    Percent

 Unsupported Costs           $3.5            89.7           $2.4          96.0

 Supported Costs               0.4           10.3            0.1            4.0

  Total                      $3.9            100.0          $2.5          100.0


The CARD is a key document that supports the EA. The CARD neither
contained adequate documentation nor made adequate references to source
documentation. According to the CARD, the Army based GFEBS software and
hardware requirements on “several years’ worth of experience of technical
networking for ERP implementation” and developed work force projections using
a combination of analogy-based methods and engineering estimates. However,
the Army did not cite source documents used to support the GFEBS software and
hardware requirements in the CARD, and the Army and DFAS did not provide
adequate support for the estimates as required by the Defense Acquisition
Guidebook.

        Status Quo Cost Estimate Support. The Army did not provide support
for the estimated $3.5 billion in Status Quo system costs reported in the EA.
According to the Deputy Assistant Secretary of the Army (Financial Operations),
the estimated $3.5 billion represented direct-billable hour costs. According to the
EA, the direct-billable hours related to “manual financial rework and . . . manual
vendor payment processing” by DFAS. However, Army personnel did not
provide adequate source documents to support the $3.5 billion.

We were able to validate $0.4 billion (10.3 percent) of the $3.9 billion in Status
Quo costs with the DFAS Headquarters Corporate Budget Office. The
$0.4 billion cost estimate represented support and operating costs for 6 of
77 existing systems that GFEBS will replace. However, as discussed above, the
cost estimate for DFAS direct-billable hours was unsupported.

        GFEBS Cost Estimate Support. The Army did not provide support for
the estimated $2.4 billion in projected GFEBS system costs reported in the EA.
The $2.4 billion in unsupported GFEBS cost estimates included $1.4 billion for
investment and system operation costs. The EA stated that the cost information
was obtained from a variety of sources to include actual cost from contracts,
hardware and software vendor quotes, as well as engineering estimates and
analogies to comparable Federal ERP implementations. However, the Army did
not provide detailed source documents or references to source documents to
support these cost estimates. The remaining $1 billion of the unsupported GFEBS
cost estimate represented the estimated cost to sustain current DFAS processes for
4 years until GFEBS is fully implemented. However, the Army and DFAS did
not provide adequate source documents to support the $1 billion cost estimate.


                                     27

The Army adequately supported $0.1 billion of the GFEBS cost estimate. The
estimate represented the phase-out cost for six existing systems GFEBS will
replace. The six existing systems have to be maintained and kept operational
during the first 4 years of the GFEBS life-cycle.

Cost Estimate Completeness. The Army did not include all costs in the
estimates for the two alternatives. The Army has identified 208 systems with
financial management relevance. Figure 2 shows the status of the 208 systems as
of May 2006.




                                         77 Systems
    61 Systems61                                      GFEBS will replace (77)
                                           77
                                                      Other programs will replace (19)

                                                      May require interfaces with
                                                      GFEBS (51)
                                                      Require further study (61)

       51 Systems 51              1919 Systems




Figure 2. Status of Existing Systems

GFEBS will replace 77 of the 208 financial management systems. Programs
other than GFEBS will replace an additional 19 of the 208 systems. The Army
has not finalized action on the remaining 112 systems. Fifty-one may require
interfaces with GFEBS, and 61 require further study. The EA should have
reported the full costs for:

       •   replacing existing systems,
       •   interfacing with existing systems,

       •   compliance upgrades for existing systems, and
       •   converting and retaining data.

The Army did not include cost estimates for these systems because the Army did
not include essential requirements information in the CARD. The CARD did not
include complete quantitative comparisons between GFEBS and existing systems
GFEBS will replace. As a result, the cost estimates used in the EA were
incomplete. Although we were unable to find estimates for the missing EA costs,
we believe the estimates would add substantially to the total cost estimate.
Finding A contains additional information on system requirements and data
conversion.

       Replacement Cost Estimate Completeness. The Status Quo cost
estimate in the EA is incomplete because the CARD only included baseline work
                                    28 

         force, software, and hardware requirements for GFEBS. The EA did include
         workforce, software, and hardware costs for 6 of the 77 existing systems GFEBS
         will replace. However, the Army did not include in the EA the system operations,
         and support costs for system management, hardware and software maintenance,
         site operations, and work force requirements for 71 of the 77 systems. The Army
         included a cost estimate of $0.4 billion for replacing only six financial
         management systems in its total Status Quo cost estimate of $3.9 billion.

                 Interface Cost Estimate Completeness. The EA did not include any
         costs for interfacing 51 major systems with GFEBS because the CARD did not
         identify the systems. In addition, the Army had not made a decision on whether
         to interface, retain, or replace 61 other systems with financial management
         relevance to the GFEBS program.

                 Compliance Upgrade Cost Estimate Completeness. The EA did not
         include costs for ensuring that the 51 systems that may require interfaces with
         GFEBS and 61 systems that require further study comply with Federal system
         requirements. The only system costs in the EA are phase-out costs for six of the
         systems GFEBS will replace. The purpose of the Chief Financial Officers Act
         and the Federal Financial Management Improvement Act was to improve
         financial management and internal controls and to assure reliable financial
         information. Financial management systems must comply with Federal system
         requirements and U.S. Government Standard General Ledger at the transaction
         level. In the EA, the Army recognized that true Status Quo was not a viable
         option but did not provide a cost estimate to fix the deficiencies. For the systems
         GFEBS will not replace and that are not compliant, the Army should have
         included cost estimates to bring those systems into compliance with Federal
         system requirements in the EA.

                 Data Conversion and Retention Cost Estimate Completeness. The EA
         did not include cost estimates for data conversion and retention. The EA was
         incomplete because the Army did not provide complete information on system
         users and accounting transaction volumes in the CARD, and what the Army did
         provide had no audit trail. In addition, the Army neither identified the data
         conversion processes required for GFEBS implementation nor what data to
         convert. The Army will either transfer historical transactions into GFEBS or
         retain the transactions in existing systems, whereby the Army would incur the
         operating and support costs of the existing systems. Without identifying the
         specific data to convert, the Army cannot prepare reliable cost estimates. The
         volume of Army financial transactions is enormous. For example, in
         January 2006, the Business Enterprise Information Services12 posted 12.7 million
         transactions from 5 financial management systems to the Army General Fund
         general ledger.

         Confidence in Estimated Cost Savings. Personnel from the Office of the
         Secretary of Defense (Program Analysis and Evaluation) (OSD [PA&E])
         expressed a lack of confidence in the EA cost estimates in an April 18, 2005,
         memorandum to ASD (NII/CIO). In the memorandum, OSD (PA&E) personnel
         concluded that they could not “state with any confidence that the cost estimate for
         the GFEBS program is reasonable.” To support this conclusion, OSD (PA&E)
         personnel cited the Army’s failure to use a traditional approach that compares

12
  The Business Enterprise Information Services is an information system that will build on existing
  infrastructure to provide timely, accurate, and reliable business information from across DoD.

                                                    29

    actual costs among similar programs. Specifically, the Army did not demonstrate
    how its cost estimation approach related to specific aspects of the GFEBS
    acquisition. As a result, OSD (PA&E) could not assess whether the cost estimate
    was reasonable or determine which cost risks were incorporated in the estimate.


Estimated GFEBS Benefits
    The Army used an inappropriate methodology to determine the estimated benefits
    of $3.8 billion from implementing GFEBS. The Army used the results of a
    commercial study (the Study) to calculate the GFEBS benefits. However, the
    Army did not adequately document its rationale for using the Study in the EA.
    The Army’s use of the Study results to calculate the GFEBS benefits was
    inappropriate. Specifically:

           •	 the sample of business entities was not representative of the Army
              operations,

           •	 the Army reported monetary benefit categories that were not related to
              GFEBS, and

           •	 the GFEBS benefits were based on an inappropriate sales revenue
              multiplier.

    Sample of Business Entities. The business entities surveyed in the Study were
    not representative of the Army. The Study reported the results of a survey of
    204 business entities that had experience in ERP implementation. However, only
    1 of the 204 business entities was a Federal Government organization. Only
    34 out of 204 business entities reported monetary benefits from ERP
    implementation. The Study was heavily weighted towards the manufacturing
    industry—89 of 204 business entities were manufacturing entities. The Army has
    a significantly different mission and function than the 204 business entities
    surveyed. Most of the business entities were profit driven whereas the Army is
    mission driven. The Army’s mission is to “develop ready and relevant land
    forces in support of the combat commanders and in joint force to sustain the full
    range of global commitments” and to “train and equip soldiers as warriors and
    growing adaptive leaders.” The business entities surveyed had little or no
    relationship to the Army mission and need for financial management information.

    Benefit Categories. The Army inappropriately included eight benefit categories
    that were not GFEBS ERP benefits in the EA. Part of the Study discussed
    potential monetary benefits of ERP implementation. The Study reported
    21 potential benefit categories. However, only 34 business entities reported
    monetary benefits from ERP implementation. Appendix D lists the 21 benefit
    categories, the number of business entities reporting the benefits, and the average
    annual monetary benefits for those entities. Instead, the Army chose to use
    multiple ERP solutions for various Army functions; however, the EA
    inappropriately reflected benefits related to other Army ERPs. For example, the
    Army has four major material supply and service management (logistics) ERPs:
    the U.S. Army Medical Research and Material Command’s Revolution in
    Logistics, the Global Combat Support System, the Logistics Modernization
    Program, and the Product Lifecycle Management Plus. These four logistic ERPs


                                        30 

            should claim benefits relating to inventory, distribution, purchasing, and the
            supply chain.13 The Army Working Capital Fund is a business fund that should
            realize benefits relating to cash flow, production, and sales. As a result, the Army
            overstated the $3.8 billion in GFEBS benefits by $1.8 billion, or 47.4 percent.
            Table 4 shows the breakout of the overstated benefits of $1.8 billion.


                                  Table 4. Breakout of Overstated Benefits

                                                                                       Monetary Benefit
                         Benefit Category                      Functional Area          (in millions)

             Improved cash flow                                    AWCF*                     $ 458.7

             Reduced production costs                              AWCF*                        227.5

             Improved sales forecasting                            AWCF*                        502.3

             Lower inventory                                       Logistics                     88.2

             Reduced distribution costs                            Logistics                    170.6

             Increased purchasing discounts                        Logistics                     90.0

             Improved supply chain performance                     Logistics                     78.2

             Improved order processing                             Logistics                    213.2

               Total                                                                         $1,828.7

             *Army Working Capital Fund



            Sales Revenue Multiplier. The Army estimated GFEBS benefits using an
            inappropriate sales revenue multiplier based on the ratio of Army funding to
            industry sales. Sales revenue was a primary metric in the Study. However, sales
            revenue is not the primary source of funding for the Army General Fund. The
            Army divided its FY 2004 funding of $93.3 billion by the average sales revenue
            of $1.4 billion cited in the Study to arrive at a revenue multiplier of 66.4. The
            Army used 15 of the 21 benefit categories in the GFEBS EA, multiplied the
            reported average annual monetary benefits for those 15 categories by the
            66.4 sales revenue multiplier, and then reported the monetary benefits over a
            12-year period to arrive at the total GFEBS benefits of $3.8 billion.

            We agree that the Study provides the types of benefits that GFEBS might provide;
            however, the monetary results cited in the Study should not be projected as
            monetary benefits. The Army might realize benefits such as improved financial
            information. DoD Instruction 7041.3 states, “Minimally, qualitative costs or


13
     The supply chain is a network of facilities and distribution options that performs the functions of
     procurement of materials, transformation of materials into intermediate and finished products, and
     distribution of these finished products to customers.

                                                        31

     benefits should be discussed in narrative format.” The Army could have included
     benefits it might reasonably expect to achieve in qualitative terms in the EA.

     OSD (PA&E) Conclusion on Estimated Benefits. OSD (PA&E) personnel also
     expressed a lack of confidence in the EA benefit estimates in the April 18, 2005,
     memorandum. In the memorandum, OSD (PA&E) personnel stated that the Army
     assumed that the benefits identified in the Study scaled linearly with the size of
     the organization implementing the ERP. OSD (PA&E) personnel concluded, “It
     is unlikely all those savings scale linearly, so the benefits estimate is likely
     inflated.” They added that “… without understanding the fundamental processes
     and change management implicit in those benefits, it is not possible to evaluate
     the accuracy of the estimate or whether the Army can reasonably expect to
     achieve the savings with GFEBS implementation.”


EA Review and Approval
     The Army’s actions did not adequately correct the EA to address OSD (PA&E)
     concerns. The Army disputed the OSD (PA&E) concerns in a memorandum on
     April 29, 2005. The Army argued that the cost estimates were reasonable and that
     the Army accepted many of the benefits identified in the Study. However, the
     Army also acknowledged that this EA “by its nature contains higher level and
     broader estimates than subsequent updates.” Although the Army’s actions did not
     adequately address OSD (PA&E) concerns, ASD (NII/CIO) approved the EA on
     June 24, 2005, and provided approval to award the system integrator contract.

     The Army has not delivered an updated EA. The Army’s response to
     OSD (PA&E) stated, “Future GFEBS business justifications will provide
     additional fidelity and follow the process outlined within DoD 5000.” When the
     Army updates the EA, the USD (AT&L) should provide documentation that
     indicates he has acknowledged and evaluated the cost and benefit data before the
     GFEBS project proceeds. In addition, the Army should retain the review
     documentation as part of the official project documentation.


Project Decision and Justification
     Investment Cost. The Army plans to invest $556.2 million in the development
     and deployment of GFEBS. This includes $516.2 million for the integration
     contract and $40 million for the program management contract. As of
     February 2007, the Army has paid $76.6 million on the GFEBS system integrator
     and the program management support contracts. The Army did not economically
     justify its decision to invest in GFEBS development and deployment. According
     to OSD (PA&E), “the lack of confidence in the cost and benefits estimates makes
     the economic justification for the program suspect.” As a result, GFEBS may not
     be the most economical solution to obtain a clean audit opinion and improve
     Army financial information. Without reliable and supported cost and benefit
     estimates, the Army does not have realistic baseline information needed to defend
     priorities and resource allocations for GFEBS. The lack of realistic baseline
     information poses a significant risk that the Army will not be able to demonstrate
     adequately whether GFEBS is cost-effective until it has spent hundreds of
     millions of dollars or more on system design, development, integration, and

                                         32 

    implementation. In addition, the Army will be unable to achieve cost
    containment and project control for the life-cycle costs, estimated at $2.5 billion
    over 14 years. The EA should have included complete cost information on
    existing systems, and supported estimates for GFEBS costs and benefits.

    Management Action. DoD Instruction 5000.2, “Operation of the Defense
    Acquisition System,” May 12, 2003, requires that the EA be updated at least once
    during the acquisition process. PEO EIS personnel have informed us that they
    plan to update the EA. The Army needs to update the EA based on realistic
    assumptions, costs, and benefits. Furthermore, DoD Instruction 7041.3 requires
    that the cost estimates should be auditable.

    We acknowledge that the Army must implement a system that will allow for the
    production of auditable financial statements. However, the continuation of the
    system integrator and program management support contracts without adequately
    defined program requirements (see finding A) and an updated EA would not be a
    prudent use of Army funds. The Army should coordinate the updated EA with
    the OUSD (AT&L) and the Office of the Under Secretary of Defense
    (Comptroller) and a decision should be made whether to continue with the
    GFEBS program, modify the program, or discontinue the program. Because the
    USD (C)/CFO provided the authority to obligate funds in support of the GFEBS
    acquisition, she should be directly involved in the decision whether or not to
    continue the GFEBS contracts. By using the updated EA to make the decision
    whether to continue with the GFEBS program, modify the program, or
    discontinue the program, the Army could put to better use $532.5 million
    currently budgeted for GFEBS contracts. The Army would achieve these benefits
    by implementing the GFEBS program based on fully defined program
    requirements and an updated, realistic, and supported EA. See Appendix E for
    the Statement of Potential Monetary Benefits.


Recommendations, Management Comments, and Audit
  Response
    Deleted and Renumbered Recommendations. We have deleted
    Recommendation C.1.a. addressed to the USD (AT&L), the USD (C)/CFO, and
    the Assistant Secretary of the Army (Acquisition, Logistics, and Technology).
    The original recommendation was to place the GFEBS system integrator and
    program management support contracts on hold until the EA was updated and the
    cost and benefit data were validated. We deleted this recommendation because
    personnel from the Office of the Under Secretary of Defense (Comptroller), the
    Office of the Assistant Secretary of the Army (Financial Management and
    Comptroller) and the GFEBS Project Management Office raised concerns that
    putting the contracts on hold would not allow the completion of the system design
    work. They stated that completion of design work would provide Army cost
    analysts responsible for preparing the EA with the most current validated
    information on business process and software changes required by GFEBS. They
    proposed having an updated EA within 90 days after the completion of the design
    work, which is scheduled for September 2007. Recommendation C.1.b. was
    renumbered to C.1.

    C.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics, the Under Secretary of Defense

                                         33

        (Comptroller)/Chief Financial Officer, and the Assistant Secretary of the
        Army (Acquisition, Logistics, and Technology) make a decision to continue,
        modify, or discontinue the General Fund Enterprise Business System
        contracts based on the results of the updated economic analysis.

        Management Comments. The Director, Defense Procurement and Acquisition
        Policy, OUSD (AT&L) partially concurred and the Assistant Secretary of the
        Army (Acquisition, Logistics, and Technology) concurred with this
        recommendation. They stated that the Army is updating the EA in support of the
        upcoming Milestone B decision14 and the milestone decision authority will use
        the EA in the decision making process. The Director and Assistant Secretary
        stated that placing the contract on hold until Milestone B would increase the risk
        for schedule delays and increased costs. The Director also stated that the current
        oversight process, the Enterprise Risk Assessment Model, which is being applied
        by the Business Transformation Agency, would identify program risks and
        provide mitigating solutions.

        Audit Response. The USD (C)/CFO did not comment on the recommendation.
        The Director, Defense Procurement and Acquisition Policy, OUSD (AT&L) and
        the Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
        comments were responsive. We agree with the Director, Defense Procurement
        and Acquisition Policy, OUSD (AT&L) and the Assistant Secretary of the Army
        to wait until the Milestone B decision because the GFEBS program cannot move
        forward until the EA is done and a decision is made to continue, modify, or
        discontinue the GFEBS contracts. By that time, PEO EIS should have
        requirements fully defined. We also plan to continue oversight of the GFEBS
        program by reviewing the updated EA and other key documents required to
        support decisions in the acquisition life cycle. We request that the USD (C)/CFO
        provide comments on renumbered Recommendation C.1. on the final report. We
        also request that management indicate concurrence or nonconcurrence with the
        $532.5 million in potential monetary benefits.

        C.2. We recommend that the Assistant Secretary of the Army (Acquisition,
        Logistics, and Technology):

               a. Develop and implement procedures to ensure that information
        provided to decision makers concerning the economic justification of system
        acquisitions is complete and supported in accordance with the Defense
        Acquisition Guidebook.

                b. Update the cost analysis requirements description to:

                       (i) Ensure that evidential matter supports all information used
        in the cost analysis requirements description.

                     (ii) Identify the interface, upgrade, and operations and
        support requirements for all systems with financial management relevance to
        the General Fund Enterprise Business System program.

                c. Update the economic analysis to:


14
  Milestone B decision is the decision to approve the system development and demonstration of a major
 system by the DoD official designated to have the authority to make that decision.
                                                  34 

             (i) Ensure that evidential matter supports all information used
in the economic analysis.

              (ii) Include all relevant costs and system requirements for
each alternative in the economic analysis

       d. Retain documentation of the Under Secretary of the Defense for
Acquisition, Technology, and Logistics review and validation of cost and
benefit data as part of the official program documentation.

Management Comments. The Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) concurred with Recommendations C.2.a., C.2.b., and
C.2.c.; however, he did not respond to Recommendation C.2.d. We request that
the Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
provide comments on Recommendation C.2.d on the final report.

C.3. We recommend that the Director, Defense Finance and Accounting
Service, develop and implement procedures to ensure that information
provided to decision makers concerning the economic justification of system
acquisitions is complete and supported in accordance with the Defense
Acquisition Guidebook.

Management Comments. The Executive Director, DFAS Financial
Management Center of Excellence, did not concur with the recommendation. The
Executive Director proposed the recommendation be revised as follows: “We
recommend Director, Defense Finance and Accounting Service retain
documentation used to develop the economic analysis as part of the official
program documentation in accordance with the Defense Acquisition Handbook.”
In addition, the Executive Director stated that they have taken action to retrieve
and retain documentation for the GFEBS EA.

Audit Response. The comments provided by the Executive Director, DFAS
Financial Management Center of Excellence, were not responsive. The Executive
Director stated that DFAS will retrieve and retain documentation for the initial
GFEBS EA. However, DFAS has not formalized the retention requirements for
EA supporting documentation to ensure that source documents will be readily
available. There should be an audit trail for financial estimates that DFAS
provides to other DoD system developers. We request that the Executive
Director, DFAS Financial Management Center of Excellence, reconsider his
position and include actions planned to ensure supporting documentation is
retained in the future.




                                    35

Appendix A. Scope and Methodology 

   We conducted this performance audit in accordance with generally accepted
   government auditing standards. Those standards require that we plan and perform
   the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
   for our findings and conclusions based on our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our finding and conclusions
   based on our audit objectives.

   We reviewed the General Fund Enterprise Business System (GFEBS) acquisition
   plan to determine whether the need for it was properly justified and whether
   system requirements were adequately defined. We also examined internal
   controls over the development of the GFEBS project.

   We reviewed contract documentation related to the acquisition of GFEBS. We
   reviewed the blanket purchase agreement; the task order issued under the blanket
   purchase agreement; and the request for quotation, including the statement of
   objectives. We analyzed the acquisition documents to determine whether the
   contracting method was appropriate for the GFEBS acquisition. We discussed the
   acquisition planning and internal controls for GFEBS with the PEO EIS,
   acquisition planning personnel, and system integrator contractor personnel. We
   also discussed the GFEBS contract process with the contracting officer as well as
   personnel at the Office of the Under Secretary of Defense for Acquisition,
   Technology, and Logistics; the Office of the Assistant Secretary of Defense
   (Networks and Information Integration); and the Office of the Assistant Secretary
   of the Army (Acquisition, Logistics, and Technology).

   We examined GFEBS documentation to determine whether GFEBS was
   economically justified. We reviewed the economic analysis (EA), the cost
   analysis requirements description, and the analysis of alternatives. We analyzed
   the numbers presented in the EA and attempted to validate the numbers by
   contacting the appropriate sources within the Army and the Defense Finance and
   Accounting Service (DFAS) for verification of the information. We reviewed a
   study which the Army used as a source for estimating GFEBS benefits reported in
   the EA.

   We examined the requirements for GFEBS to determine whether they were
   complete, clear, and concise; whether they fully described the software
   functionality needed by the Army; and whether they were sufficiently identified
   to ensure compliance with applicable guidance. We discussed the GFEBS
   planning, the blanket purchase agreement contract, and EA preparation and
   review process with personnel from the:

          •	 Office of the Under Secretary of Defense for Acquisition, Technology,
             and Logistics;

          •	 Office of the Assistant Secretary of Defense for Networks and
             Information Integration;

          •	 Office of the Assistant Secretary of the Army (Acquisition, Logistics,
             and Technology);


                                       36 

           •   Program Executive Office Enterprise Information Systems; and

           •   DFAS.

    We reviewed the GFEBS planning and acquisition processes for compliance with
    applicable laws and DoD policies. A list of laws and DoD guidance is listed in
    Appendix B.

    We performed this audit from November 2005 through June 2007 in accordance
    with generally accepted government auditing standards. Our scope was limited in
    that the Army could not provide documentation to support the EA and did not
    adequately define GFEBS requirements. Specifically, the Army and DFAS
    Indianapolis Operations did not provide documentation for the cost estimates or
    adequate documentation for the monetary benefits cited in the EA. As a result,
    we were unable to verify the information in the EA. Finding C of the report
    discusses the details of the deficiency. In addition, we did not review the
    validation and analysis of seven of the nine alternatives discussed in the analysis
    of alternatives document because of the lack of verifiable information.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. The Technical Assessment Directorate, Office of
    the Assistant Inspector General for Audit Followup and Technical Support,
    provided technical assistance for this audit. Specifically, the Technical
    Assessment Directorate evaluated technical documents such as the request for
    quotation and the acquisition strategy to determine if the documents complied
    with the information assurance policies, rules, and regulations of DoD and the
    Federal Government.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Business Systems Modernization high-risk area.


Prior Coverage
    There has been no prior audit coverage of the GFEBS program in the last 5 years.




                                        37

Appendix B. Acquisition and Contract Guidance
   DoD Directive 5000.1, “The Defense Acquisition System.” DoD
   Directive 5000.1, “The Defense Acquisition System,” May 12, 2003, provides
   guidance to ensure DoD acquires quality products in a timely manner that satisfy
   user needs with measurable improvements to mission capability and operational
   support and at a fair and reasonable price.

   DoD Instruction 5000.2, “Operation of The Defense Acquisition System.”
   DoD Instruction 5000.2, “Operation of The Defense Acquisition System,”
   May 12, 2003, establishes a simplified and flexible management framework for
   translating mission needs and technology opportunities into stable, affordable,
   and well-managed acquisition programs that include weapons systems and
   automated information systems.

   DoD Instruction 7041.3, “Economic Analysis for Decisionmaking.” DoD
   Instruction 7041.3, “Economic Analysis for Decisionmaking,” November 7, 1995,
   provides guidance concerning the evaluation of decisions about the acquisition
   and operation of all covered programs or projects.

   Defense Acquisition Guidebook. The Defense Acquisition Guidebook defines
   acquisition development in 3 phases with the Acquisition Management
   Framework:
          •   the Pre-Systems Acquisition Phase defines the requirements,
          •   the Systems Acquisition Phase selects a system and develops it, and
          •   the Sustainment Phase maintains the system.

   GFEBS is currently in the Pre-Systems Acquisition Phase. The figure below
   illustrates each phase and the stages within each phase.

                    The Defense Acquisition Management Framework

     Pre-Systems Acquisition Phase      Systems Acquisition Phase    Sustainment Phase
       Concept       Technology          System         Production     Operations
      Refinement     Development     Development and       and            and
        Stage           Stage         Demonstration     Deployment    Support Stage
                                          Stage           Stage


   The Concept Refinement Stage portion of the Pre-Systems Acquisition Phase
   develops and refines the initial concept for the system. Documents prepared
   during the Concept Refinement Stage include the analysis of alternatives, which
   evaluates numerous conceptual solutions and identifies the most promising
   options.

   The Technology Development Stage portion of the Pre-Systems Acquisition
   Phase reduces the technology risk and determines the appropriate set of
   technologies to be integrated into the new systems. Documents prepared in the
   Technology Development Stage include the preparation of the CARD and the EA.
                                        38 

The CARD describes the acquisition program in terms of concepts, material and
manpower requirements, program risks, milestones and an acquisition plan. The
EA determines the best acquisition alternative and assesses the net costs and
benefits of the proposed alternative relative to the existing systems. In general,
the best alternative will be the one that meets validated capability needs at the
lowest life-cycle cost (measured in present value terms) and provides the most
favorable return on investment.

Key emphasis during the Systems Development and Demonstration Stage of the
Systems Acquisition Phase is to design, test, and demonstrate a prototype for
system users.

During the Production and Deployment Stage portion of the Systems Acquisition
Phase, the new system should achieve operational capability that satisfies mission
needs.

The objective of the Operations and Support Stage of the Sustainment Phase is the
execution of a support program that meets operational performance requirements
and sustains the system in the most cost-effective manner over its total life cycle.

Federal Acquisition Regulation. The Federal Acquisition Regulation (FAR) is a
regulatory document designed to provide rules and guidance on acquisition
contracts by Federal agencies. The Defense Federal Acquisition Regulation
Supplement is a supplement to the FAR designed specifically for DoD acquisition
professionals and contractors.

       •	 FAR Part 2.1 states, “a commercial item is customarily used for
          nongovernmental purposes, and has been sold or offered for sale,
          lease, or license to the public. Commercial items can also include
          items that have minor modifications that do not significantly alter the
          nongovernmental function or essential physical characteristics of an
          item or component or change the purpose of a process.” Commercial
          items include services “of a type offered and sold competitively in
          substantial quantities in the commercial marketplace based on
          established catalog or market prices for specific tasks performed or
          specific outcomes to be achieved and under standard commercial
          terms and conditions.”

       •	 FAR Part 12.207 states, “agencies shall use firm-fixed-price contracts
          or fixed-price contracts with economic price adjustment for the
          acquisition of commercial items. Indefinite-delivery contracts may be
          used where the prices are established based on a firm-fixed-price or
          fixed-price with economic price adjustment. Use of any other contract
          type to acquire commercial items is prohibited.”

       •	 FAR Part 12.208 states, “contracts for commercial items shall rely on
          contractors’ existing quality assurance systems as a substitute for
          Government inspection and testing before tender for acceptance unless
          customary market practices for the commercial item being acquired
          include in-process inspection. Any in-process inspection by the
          Government shall be conducted in a manner consistent with
          commercial practice.”



                                    39

       •	 Defense Federal Acquisition Regulation Supplement Part 235.006
          states, “Do not award a fixed-price type contract for a development
          program effort unless:

              −	 the level of program risk permits realistic pricing;

              −	 the use of a fixed-price type contract permits an equitable and
                 sensible allocation of program risk between the Government
                 and the contractor; and

              −	 a written determination that the criteria of this section have
                 been met is executed by the Under Secretary of Defense for
                 Acquisition, Technology, and Logistics for the development of
                 a major system or subsystem thereof, if the contract is over
                 $25 million.”

DoD Regulation 7000.14-R, “DoD Financial Management Regulation.” DoD
Financial Management Regulation governs financial management by establishing
and enforcing requirements, principles, standards, systems, procedures, and
practices necessary to comply with financial management statutory and regulatory
requirements applicable to DoD. The DoD Financial Management Regulation
directs financial management requirements, systems, and functions for all
appropriated, nonappropriated, working capital, revolving, and trust fund
activities. In addition, it directs statutory and regulatory financial reporting
requirements.

The DoD Financial Management Regulation, volume 2A, chapter 1,
paragraph 010209 provides that items purchased directly from a commercial
source that can be used without alteration or modification are classified as
“COTS” or “non-developmental” items. All COTS and non-developmental items
should be funded in the procurement or operation and maintenance
appropriations, as determined by the expense and investment criteria. If an end
item requires design and development in order to accept the COTS or
non-developmental item, then the entire effort is not a COTS or
non-developmental item, and funding for that effort should be budgeted in the
Research, Development, Test, and Evaluation appropriation. If a COTS or
non-developmental item is required for Research, Development, Test, and
Evaluation test purposes, the cost is funded with Research, Development, Test,
and Evaluation appropriations.




                                   40 

Appendix C. System Analysis
The following systems were listed in the FINSRAC studies, but were not listed in the
RFQ.



                System                           FINSRAC I            FINSRAC II


Army Banking Investment Fund                        X                       X
System


Accpac                                              X                       X


Cargo and Billing System                            X                       X


Cable Billing System                                X                       X


Corps of Engineers Enterprise                       X                       X
Management Information System


Digital Switch Network Base                         X                       X
Communications Utilization Ordering
System


Intelligence and Information Systems                X                       X


International Military Education and                X                       X
Training/Foreign Military Sales
Student Business System


JUMPS Standard Terminal Input                       X                       X
System


Local National Payroll Interface for                                        X
STANFINS


Paciolan                                                                    X




                                           41

               System                  FINSRAC I   FINSRAC II


Requirements Management System                         X


Telephone Billing System                   X           X


Temporary Duty Travel Program              X           X


218 Database                               X           X


Automated Fund Control & Order             X           X
System


AVKINPUT                                   X           X


Consolidated Financial Reporting           X           X
System


Funds Allocation and Distribution          X           X
System


Funds Control/SSF                                      X


U.S. Armed Forces Command                  X           X
Execution Database System


U.S. Armed Forces Command Program          X           X
& Budget Guidance System


Installations Management Agency            X           X
Online


Microsoft Network Database                 X           X


Performance Based Management               X           X
System


                                    42 

               System                          FINSRAC I   FINSRAC II


Prior Year Funds Availability Database            X            X


Resource Management On-line                       X            X
(National Guard Bureau)


Resource Management On-line (United               X            X
States Army Criminal Investigations
Command)


Resource Management On-line (United               X            X
States Army Pacific Command)


Training Support Information                      X            X
Management System


Accounts Payable Control System                   X            X


Automated Schedule and Reporting                  X            X
System


Audit Trail                                       X            X


Army Workload and Performance                     X            X
System


Budget Build Database                             X            X


Base Realignment and Closing                      X            X
Financial Module


Corporate Management System 2                     X            X


Customer Order Management System                  X            X


DORENA                                                         X


                                         43

                System                      FINSRAC I   FINSRAC II


Exhibit Automation System                       X           X


Foreign Military Sales System                   X           X


Financial Management Tactical                               X
Platform


Finance Payment System Interface                X           X


Foreign Military Sales Pricing Utility                      X


Integrated Decision Support System              X           X


Medical Expense and Performance                 X
Reporting System


Operating Table of Distribution and             X           X
Allowances


Program Management Automated Data               X           X
System


Planning, Programming, Budgeting and            X           X
Execution Enterprise System


Resource Management On-line (Army               X           X
Material Command)(Army Working
Capital Fund)


Resource Management On-line                     X           X
HQA006


Southern Command Financial                                  X
Information Management System



                                         44 

               System                         FINSRAC I   FINSRAC II


Southern Command Traditional                                  X
Commanders Activities Information
Management System


SSN:LIN Automated Management and                 X            X
Integration System (G8)


Strategic Toolset Army Reserve                                X
Program Budget and Analysis


U.S. Army Training and Doctrine                  X            X
Command Budget Guidance System


Training Readiness & Operations, Unit            X            X
Planning, Execution & Resourcing
System


Web-based Training and Doctrine                  X            X
Command Automated System


Air and Missile Defense Budget                                X
Execution System


Automated Resource Management                                 X
System


Aviation Technical Test Center                   X            X
Management Information System


Business Information System                                   X


Budget Resource Management System                X            X


Budget Reporting Informix                        X            X


Cost Information Management System               X            X


                                        45

               System                       FINSRAC I   FINSRAC II


Commitments Outstanding System                  X           X


Cost Distribution System                                    X


Cost Transfer System                            X           X


Damage and Rehabilitation Tracking              X           X
System


Direct Army Standard Operations and             X           X
Maintenance Army Research and
Development Input System


Daily Standard Operations and                   X           X
Maintenance Army Research and
Development Reports


Command Operating Budget System                 X           X


STA Directorate Information System              X           X


FSSE Financial Management and                   X           X
Accounting


Financial Information Retrieval System          X           X
Team-up


Joint Review                                    X           X


Manage Civilian to Budget                       X           X


Operating Agency Database                       X           X


Natick Oracle Financial Database                X           X


                                         46 

              System                        FINSRAC I   FINSRAC II


Overhead Application                           X            X


Other Procurement Army – Standard              X            X
Operations and Maintenance Army
Research and Development System


Other Procurement Army Database                X            X


Procurement Obligation Reporting               X            X
System


Reimbursement In House Orders                  X            X


Resource Management Online (Army               X            X
Test and Evaluation Command)


Standard Operations and Maintenance                         X
Army Research and Development
Financial Information Management
System


Unfinanced Requirements Database               X            X


Workload Information Management                X            X
System


White Sands Management Information             X            X
System




                                      47

Appendix D. Commercial Study Quantified
            Benefits

                                          Number of         Average Annual
                                        Business Entities        Benefit
             Type of Benefit              Responding         (in thousands)
Corporate Revenue
 Increased Revenue                             11               $1,923
Cost Reduction
 Lower inventory                               10               $1,330
 Improved cash flow                            15                 $807
 Reduced production costs                       1                 $400
 Reduced distribution costs                     1                 $300
 Reduced personnel costs                       17               $1,424
 Reduced financial processing costs            13                 $433
Improved Service
 Improved product quality                       0                   $0
 Improved customer service                      8                 $444
Increased Productivity
 Enhanced business processes                    7                 $205
 Increased purchasing discounts                 3                 $158
 Improved supply chain                          2                 $138
 Faster receivables collection                  8                 $681
 Improved order processing                      2                 $375
 Improved sales forecasting                     3                 $883
 Improved manufacturing                         0                   $0
 Improved analysis and reporting               11                 $400
Enhanced IT Effectiveness
 Attained single system image                   1                 $500
 Improved customer service                      2                 $750
 Lower technical support effort                 6                 $477
 Enhanced customization facility                0                   $0




                                      48 

Appendix E. Summary of Potential
            Monetary Benefits
Recommendation
   Reference        Type of Benefit      Amount of Benefit       Account

     C.1.        Economy and            $532.5 million       $107.6 million
                 Efficiency. Funds                           from Other
                 could be used for                           Procurement,
                 efforts that have been                      Army
                 economically justified
                 and adequately                              $97.7 million
                 supported.                                  from Research,
                                                             Development,
                                                             Test and
                                                             Evaluation

                                                             $327.2 million
                                                             from Operations
                                                             and Maintenance,
                                                             Army




                                       49

Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Networks and Information Integration/Chief
  Information Officer

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Business Transformation Agency
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          50 

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform




                                        51

Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics
                                                                                                    Final Report
                                                                                                     Reference


                        OFFICE OF THE UNDER SECRETARY OF              DEFENSE

                                        3000 DEFENSE PENTAGON
                                      WASHINGTON, D C 20301 3 0 0 0



    ACQUISITION,
   TECHNOLOGY 

                                                                          AUG   3 0   2007
   AND LOGISTICS 





          MEMORANDUM FOR PROGRAM DIRECTOR, DEFENSE FINANCIAL AUDITING
                           SERVICE, DODIG

          THROUGH; DIRECTOR, ACQUISITION RESOURCES AND ANALYSIS


          SUBJECT: Response to DoDIG Draft Report on the Management of the General Fund
                   Enterprise Business System (GFEBS) (Project No. D2006-D000F1­
                   0017.000)

                  As requested, I am providing responses to recommendations A.1., B.1., and C.1.
          of the subject draft report.

          DoDIG Recommendation #A.l. We recommend that the Under Secretary of Defense               Redirected
          for Acquisition, Technology, and Logistics (USD(AT&L)) coordinate with Office of
          Management and Budget (OMB) personnel to add the General Fund Enterprise Business
          System program to the High-Risk Information Technology Projects list.

          A T & L Comments: Partially concur. This list was developed by OMB to identify high
          risk projects across the Federal Government. The Assistant Secretary of Defense for
          Networks and Information Integration/Chief Information Officer (ASD(NII/CIO)), not
          USD(AT&L), is responsible for the list within the Office of the Secretary of Defense.
          Except for the initial establishment of the list, OMB has not asked ASD(NII/CI0) for
          input prior to publication of its quarterly updates. If OMB does ask DoD for
          recommendations. ASD(NII/CIO) will evaluate the General Fund Enterprise Business
          System program at that time.

          DoDIG Recommendation #B.l. We recommend that the USD(AT&L):

                  a. Discontinue use of the Enterprise Software Initiative (ESI) blanket purchase   Revised and
          agreement (BPA) as the contract vehicle for future large and complex system               renumbered
          implementations until system requirements are fully defined and approved and the use of   as Recom¬
          Research, Development, Test, and Evaluation funding is no longer required.                mendation
                                                                                                    B.l.a and
                                                                                                    B.l.b.




                                                    53 

Final Report
 Reference




Renumbered            b. Provide written commercial determinations to justify that the item or service
as Recom¬      being procured using General Services Administration blanket purchase agreements
mendation      meets the Federal Acquisition Regulation 2.101 definition of a commercial item for all
B.l.C.         acquisitions valued at over $ 1 million,

               A T & L Comments: Partially concur.

                         a. The DoD ESI systems integration BPA approach for acquiring commercial
               off the shelf (COTS) information technology products (particularly Enterprise Resource
               Planning products) and related integration services is one of the tools available when
               program requirements have been sufficiently (although not, perhaps, fully) defined to
               permit realistic fixed pricing of system integration contracts. The vehicles provide an
               ongoing competitive environment, discounted pricing with fixed prices discounted labor
               rates, and performance-based contracting approaches to facilitate more efficient buying
               of systems integration services. Risk is mitigated by using mature COTS software,
               leveraging industry best practices for COTS system integration, and leveraging modular
               contracting/pricing to subdivide the effort into easily-defined task packages that can be
               discretely priced. The contractor completes initial requirements definition during the
               blueprint phase, where the detailed system design is developed, and further refinements
               arc made during subsequent phases. The GFEBS program may not have performed
               sufficient upfront work prior to award, but it does not appear appropriate to draw a
               general conclusion concerning this type of contractual vehicle based on one program.

                         b. Contracting officers, in compliance with the March 2, 2007, memorandum
               issued by the Director, Defense Procurement and Acquisition Policy, must provide
               written commercial determinations to justify that the item or service being procured using
               General Services Administration BPAs meets the Federal Acquisition Regulation 2.101
               definition of a commercial item for all acquisitions valued at over $1 million.

               DoDIG Recommendation #C.1. We recommend that the USD(AT&L), the Under
               Secretary of Defense (Comptroller)/Chief Financial Officer, and the Assistant Secretary
               of the Army (Acquisition, Logistics, and Technology):

                         a. Place the GFEBS integrator and program management support contracts on
Deleted        hold until the economic analysis is updated and the cost and benefit data are validated.
                         b. Make a decision to continue, modify, or discontinue the GFEBS contracts
Renumbered     based on the result of the updated economic analysis.
as Recom¬
mendation      AT&L Comments: Partially concur.
C.l.
                     a. The Army currently is updating the economic analysis in support of the
               impending Milestone B (MS B) decision. Placing the contracts on hold until MS B
               would increase the risk for schedule delays and increased costs. However, there is a




                                                          54 

current oversight process, the Enterprise Risk Assessment Model, which is being applied
to GFEBS by the Business Transformation Agency to improve business acquisition
process outcomes by identifying program risks and providing mitigation solutions.

        b. Both the economic analysis and cost and benefit data are subject to independent
review and assessment by personnel within the Office of the Secretary of Defense. The
assessment will be part of the information provided to the milestone decision authority at
M S B , who will make a decision to continue, modify, or discontinue the GFEBS
contracts.

       Please contact Sandra Haberlin, (703) 695-4259, sandra.haberlin@osd.mil, if
additional information is required.




                                                Director, Defense Procurement
                                                  and Acquisition Policy




                                           55
               Department of the Army
Final Report
 Reference


                                                  DEPARTMENT OF THE ARMY
                                            OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY
                                                ACQUISITION LOGISTICS AND TECHNOLOGY
                                                           103 ARMY PENTAGON
                                                          WASHINGTON DC 30310


                    SAAL-SC4
                                                           OCT 05 2007
                    MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL OF AUDITING, 8899
                                                         t h
                                     EAST 5 6 STREET, INDIANAPOLIS, INDIANA 46249

                    SUBJECT: Response to the Office of the Inspector General, Department of Defense
                             (DoDIG) Draft of Proposed Report, Management of the General Fund
                             Business System (GFEBS) (Project No. D2006-D00F1-0017.000)


                           This memorandum responds to the DoDIG Draft of Proposed Report,
                    Management of the GFEBS. The GFEBS Project Office submitted comments back on
                    September 18, 2007, which I now certify as the official position of the Office of the
                    Assistant Secretary of the Army (Acquisition, Logistics and Technology).

                    DoDIG RECOMMENDATION:

                           C.1. Recommend that the Under Secretary of Defense for Acquisition,
                    Technology, and Logistics, the Under Secretary of Defense (Comptroller)/Chief
                    Financial Officer, and the Assistant Secretary of the Army (Acquisition, Logistics and
                    Technology):
Deleted                         a. Place the GFEBS system integrator and program management support
                    contracts on hold until the economic analysis is updated and the cost and benefit data
                    are validated
Renumbered                      b. Make a decision to continue, modify, or discontinue the GFEBS contracts
                    based on the result of the updated economic analysis.
as Recom¬
mendation           ASA(ALT) POSITION:
C.l.
                    C.l.a. Nonconcur. An updated Economic Analysis (EA) is currently being prepared for
                    the GFEBS Milestone (MS) B decision. Updated cost and benefit data will be provided
                    to decision makers upon completion. Placing the program on hold in the interim serves
                    no purpose and would significantly escalate program costs and overall program risks.
                    C.1.b. Concur. The MS B decision will utilize information contained within the
                    (updated) EA for its go-forward decision on GFEBS.

                    DoDIG RECOMMENDATION:

                           C.2. Recommend that the Assistant Secretary of the Army (Acquisition, Logistics
                    and Technology):
                                a. Develop and implement procedures to ensure that information provided
                    to decision makers concerning the economic justification of system acquisitions is
                    complete and supported in accordance with the Defense Acquisition Guidebook.
                                b. Update the cost analysis requirements description to:




                                                                56 

                                            -2­

                 (1) Ensure that evidential matter supports all information used in the
cost analysis requirements description.
                 (2) Identify the interface, upgrade, and operations and support
requirements for all systems with financial management relevance to the GFEBS
program.
             c. Update the EA to:
                 (1) Ensure that evidential matter supports all information used in the
economic analysis.
                 (2) Include all relevant costs and system requirements for each
alternative in the economic analysis

ASA(ALT) POSITION:

C.2a. Concur as written.
C.2.b 1. Concur. The MS    B Cost Analysis Requirements Document will include this
information.
C.2.b.2. Concur. The MS    B Cost Analysis Requirements Document will include this
information.
C.2.C.1. Concur. The MS    B EA will include this information
C.2.C.2. Concur. The MS    B EA will include this information.

       Should you have further questions, my point of contact is Mr. Mark Fornaro.
(703) 604-7125 or e-mail: mark.fornaro@hqda.army.mil.




                                             Deputy for Acquisition and
                                               Systems Management




                                           57 

Final Report
 Reference


                                                               DEPARTMENT OF THE ARMY 

                                                         OFFICE O f THE ASSISTANT SECRETARY OF THE ARMY 

                                                            FINANCIAL MANAGEMENT AND COMPTROLLER 

                                                                         109 ARMY PENTAGON 

                                                                     WASHINGTON DC 20310-0109 



 ReplytoattentionofSEP 1 8 2007



                                  MEMORANDUM FOR PROGRAM DIRECTOR, DEFENSE FINANCIAL AUDITING
                                  SERVICE, OFFICE OF THE ASSISTANT INSPECTOR GENERAL FOR AUDITING,
                                  DEPARTMENT OF DEFENSE, 8899 EAST 56™ STREET, INDIANAPOLIS, INDIANA
                                  46249-7501

                                  SUBJECT: Draft of a Proposed Report, Management of the General Fund Enterprise
                                  Business System (Project No. D2006-D00FI-0017.000)


                                  1. Reference subject report dated July 3, 2007.

                              2, Our comments to DODIG Recommendation A.2 (a-d) are:

                                 a. Withhold funding for systems whose owners do not provide the information
                              concerning system functionality necessary to integrate the General Fund Enterprise
                              Business System.

                              Concur. Information concerning system functionality has been provided by system
                              owners and Government subject matter experts; therefore, the Army has not had to
                              resort to this recommendation. The Army will retain this option, as required, as we go
                              forward.

                                 b. Identify subject matter experts for all potential system interfaces and commit
                              personnel to the project for the duration of the project.

                              Concur. Army knew that government staff participation in solution design was going to
                              be critical to General Fund Enterprise Business System success. Army executive
                              leadership placed significant emphasis on securing subject matter expert participation
                              from a wide range of organizations to ensure the necessary functionality would be
                              integrated into General Fund Enterprise Business System,

                              NOTE: Number of government subject matter expert participants provided for Release
                              1.2 global blueprint - 249 (Total includes rotational resources; average concurrent
                              subject matter expert support for blueprint workshops exceeds 100).

Revised                          c. Prepare a detailed data conversion plan prior to completing the blueprint of the
                              General Fund Enterprise Business System.

                              Concur. The Data Conversion plan will be completed within 30 days of the design
                              blueprint. The data conversion plan is tied directly to the blueprinting process. A
                              complete blueprint will dictate which conversion activities should be undertaken.




                                                                              58 

                                           -2¬
   d. Evaluate current timeframes for the General Fund Enterprise Business System
program and adjust to accomplish the actions in this recommendation.

Concur. We have evaluated our current timeframes and determined that our current
schedule meets the intent of this recommendation.

3. If you have any questions, they should be directed to Krystal Ange at (703)
682-3550.




                                           John J. Argodale
                                 Deputy Assistant Secretary of the Army
                                        (Financial Operations)
CF:
Army Audit Agency




                                          59
                              DEPARTMENT OF THE ARMY
                             OFFICE OF THE P R O G R A M E X E C U T I V E OFFICER
                                  ENTERPRISE I N F O R M A T I O N S Y S T E M S
                                                       (PEO EIS]
                                        9 3 5 0 HALL R O A D . SUITE 1 4 1
                                  FORT B E L V O I R , V I R G I N I A 2 2 0 6 0 - 5 5 2 6




SFAE-PS

Mr. Craig W. Michaels
Project Manager, Army Financial Statements Division (Indianapolis)
Defense Financial Auditing Service (DFS)
Department of Defense Office of Inspector General
DFAS Indianapolis, Indiana

Dear Mr. Michaels:

       The Program Executive Office Enterprise Information Systems (PEO EIS) and the
General Fund Enterprise Business System (GFEBS) would like to submit comments for
your review and consideration regarding the Draft of A Proposed Report Management of
the General Fund Enterprise Business System, Project No. D2006-D000FI-0017.000
dated July 3, 2007.

       The comments are included in the Draft Report and reflect the circumstance and
rationale for issues and concerns listed in your draft document.

       If you have any questions or concerns, please fee! free to contact my Deputy, Ms.
Catherine Doolos at (703) 806-3336, Catherine. Doolos@us.army.mil, or Mr. Michael
O'Brien at (703) 806-0691, Mike.OBrien@us.army.mil

        We do appreciate the effort and professionalism shown by your staff that performed
this task.


                                                           Sincerely,




                                                           KEVIN CARROLL
                                                           Program Executive Officer




                                                          60
                                  DEPARTMENT O F THE ARMY
                     OFFICE OF THE GENERAL FUND ENTERPRISE BUSINESS SYSTEM |GFEBS)
                                        6 3 5 4 W A L K E R LAME, S U I T E 3 5 0
                                        ALEXANDRIA. VIRGINIA 22310




SFAE-PS-GFE                                                                         Septembe r 18,2007

M E M O R A N D U M FOR Assistant Inspector General for Auditing, 8899 East 56th Street, Indianapolis,
Indiana 46249-7501, Thru PEO, Enterprise Information Systems, 9350 Hall Road, Suite 141, Fort
Belvoir, Virginia 22060-5526

SUBJECT: Project Office response to the Draft o f Proposed Report, Management of the General Fund
Business System, Project N o . D2006-D00FI-0017.000

The GFEBS Project Office contents with concurrance or nonconcurance to the Inspector General's
recommendations for subject report i s attached

Questions should be directed to Ken Bostelman at 703-682-3646 or email
kenneth.bostelman@us.army.mil.




                                                     Cherie Smith
                                                     GFEBS Project Director




                                               61
Final Report
 Reference




               SFAE-PS-GFE
               SUBJECT; Project Office response to the Draft o f Proposed Report, Management o f the General Fund
               Business System, Project N O , D 2 0 0 6 - D 0 0 F I - 0 0 1 7 . 0 0 0



               D O D IG R e c o m m e n d a t i o n s / G F E B S R e s p o n s e s


Redirected     A . l . W e recommend that the Under Secretary o f Defense for Acquisition, Technology, and Logistics
               coordinate with Office o f Management and Budget
               personnel to add the General Fund Enterprise Business System program to the
               High-Risk Information Technology Projects list.

               A . 2 . W e recommend that the Assistant Secretary o f the Army {Financial
               Management & Comptroller) provide support to the General Fund Enterprise
               Business System program through the following actions.

                    a.    Withhold funding for systems w h o s e owners do not provide the
                          information concerning system functionality necessary to integrate the General
                          Fund Enterprise Business System.

                    G F E B S Response: Concur
                    Information concerning system functionality has been provided by system owners and Government
                    S M E throughout the analyze and design phases; therefore, the Army has not had to resort to this
                    recommendation. The A S A ( F M & C ) should retain this option, as required, as w e g o forward.



                    b.    Identify subject matter experts for all potential system interfaces and
                          commit personnel to the project for the duration o f the project.

                    G F E B S Response: Partially Concur
                     t h e G F E B S program has more than adequately planned for government Subject Matter Experts
                    ( S M E s ) , including planning for the potential risk o f not being able to provide S M E s a s required by
                    the systems integrator. Statements made in the R F Q regarding the potential o f not having adequate
                    numbers o f S M E s represented a "worst case scenario" aimed at containing future risks subsequent to
                    source selection and contract award. T h e need for risk containment stemmed from the realization
                    that: 1) Other Army and D o D transformation programs could be competing for the same S M E
                    resources, 2) Wartime requirements existed for key personnel resource w h o might b e S M E
                    candidates, and 3 ) Army financial expert resources had been incrementally reduced and consolidated
                    to a smaller pool o f staff operating at D F A S . Nevertheless, the Army knew that government staff
                    participation in solution design was g o i n g to be critical to G F E B S success and Army executive
                    leadership placed significant emphasis on securing S M E participation from a w i d e range o f
                    organizations. A s a result, government S M E participation has far exceeded the system integrator's
                    requirements. T o w i t although the number o f government S M E participants required by system
                    integrator for Release 1.2 global blueprint was merely 3 6 (minimum needed to support cost proposal;
                    Source: Accenture proposal response), the number o f government S M E participants provided for
                    Release 1.2 global blueprint is 2 4 9 (total includes rotational resources; average concurrent S M E
                    support for blueprint workshops e x c e e d s 100).




                                                                                      62
                                                                                                           Final Report
                                                                                                            Reference




SFAE-PS-GFE
SUBJECT: Project Office response to the Draft o f Proposed Report, Management o f the General Fund
Business System, Project N O . D2006-D00F1 -0017,000



   c. Prepare a detailed data conversion plan prior to completing the blueprint o f the Genera! Fund
                                                                                                           Revised
   Enterprise Business System.

    GFEBS Response: Non-Concur The Data Conversion plan will be completed post blueprint. A
    data conversion plan is tied directly to the blueprinting process. A complete blueprint will dictate
    which conversion activities should be undertaken. A conversion plan prior to the completion o f
    blueprinting could require a complete rework/rewrite o f conversion designs.

    d. Evaluate current timeframes for the General Fund Enterprise Business System program and adjust
    to accomplish the actions in this recommendation.

    GFEBS Response: Partially Concur Timeframes are evaluated on a continuing basis. It is our
    belief that the current schedules meets the intent o f this recommendation




B.1. W e recommend that the Under Secretary o f Defense for Acquisition,
Technology, and Logistics:

    a. Discontinue use of the Enterprise Software Initiative blanket purchase                              Revised and
    agreement as the contract vehicle for future large and complex system                                  renumbered
    implementations until system requirements arc fully defined and approved and the use o f Research,     as Recom¬
    D e v e l o p m e n t T e s t and Evaluation funding is no longer                                      mendation
    required.
                                                                                                           B.1.a. and
    G F E B S Response: Concur                                                                             B.1.b.
    b. Provide written commercial determinations to justify that the item or                               Renumbered
    service being procured using General Services Administration blanket purchase agreements meets         as Recom¬
    the Federal Acquisition Regulation 2.101 definition of a commercial item for all acquisitions valued
                                                                                                           mendation
    at over $1 million,
                                                                                                           B.1.c.
    GFEBS Response: Concur



B.2. We recommend that in the future the Under Secretary o f Defense
{Comptroller)/Chief Financial Officer not provide obligation authority to
                                                                                                           Revised
programs planning to use the Enterprise Software Initiative Blanket Purchase
Agreement for large and complex system implementations until system
requirements are fully defined and approved and the use of Research,
Development, Test, and Evaluation funding is no longer required.

GFEBS Response: Concur




                                                    63
Final Report
 Reference




               SFAE-PS-GFE
               SUBJECT: Project Office response to the Draft of Proposed Report, Management of the General Fund
               Business System, Project N o . D 2 0 0 6 - D 0 0 F 1 - 0 0 1 7 . 0 0 0




               B.2. W e recommend that the Director, Program Executive Office, Enterprise
               information   Systems contact the Defense Contract Audit Agency to audit contract
               line items that are not fixed-price.
               GFEBS Response: Concur




               C . l . We recommend that the Under Secretary of Defense for Acquisition,
               Technology, and l o g i s t i c s , the Under Secretary or Defense (Comptroller)/Chief
               Financial Officer, and the Assistant Secretary of the Army (Acquisition,
               Logistics, and Technology):


Deleted            a. Place the General Fund Enterprise Business System system integrator and program management
                   support contracts on hold until the economic analysis is updated and the cost and benefit data are
                   validated.

                   GFEBS Response: Non Concur. An updated Economic Analysis is currently being prepared for the
                   GFEBS Milestone B decision. Updated cost and benefit data will be provided decision makers upon
                   completion. Placing the program on hold in the interim serves no purpose and would significantly
                   escalate program costs and overall program risks.



                   b. Make a decision to continue, modify, or discontinue the General Fund Enterprise Business
Renumbered         System contracts based on the result o f the updated economic analysis.
as Recom­

mendation          G F E B S Response: Partially Concur, The Milestone B decision will utilize information contained
                   within the (Updated) Milestone B EA for its g o forward decision on GFEBS. See item a. above.
C.1.


               C.2. We recommend that the Assistant Secretary o f the Army (Acquisition,
               Logistics, and Technology):

                   a. Develop and implement procedures to ensure that information provided
               to decision makers concerning the economic justification o f system acquisitions is complete and
               supported in accordance with the Defense Acquisition Guidebook.

                   GFEBS Response: Concur



                   b.   Update the cost analysis requirements description to;




                                                                     64
SFAE-PS-GFE
SUBJECT: Project Office response to the Draft of Proposed Report. Management o f t h e General fund
Business System, Project N O . D 2 0 0 6 - D 0 0 F 1 - 0 0 1 7 . 0 0 0




         i. Ensure that evidential matter supports all information used in the cost analysis requirements
           description.

        GFEBS Response: Partially Concur. The Milestone B C A R D will include this information



        ii. Identify the interface, upgrade, and operations and support requirements for all systems with
           financial management relevance to the General Fund Enterprise Business System program,

        G F E B S Response: Partially C o n c u r The Milestone B C A R D will include this information.



   c.   Update the economic analysis to:

        i. Ensure that evidential matter supports all information used in the economic analysis,

        G F E B S Response; Partially Concur. The Milestone B EA will include this information.



        ii. Include all relevant costs and system requirements for each alternative in the economic
        analysis

        GFEBS Response: Partially Concur. The Milestone B EA will include this information.



    d, Retain documentation o f the Under Secretary o f the Defense for Acquisition, Technology, and
    l o g i s t i c s review and validation o f cost and benefit data as part of the official program
    documentation,

    GFEBS Response: Concur



C.3. We recommend that the Director, Defense Finance and Accounting Service,
develop and implement procedures to ensure that information provided to
decision makers concerning the economic justification o f system requisitions is
complete and supported in accordance with the Defense Acquisition Guidebook,

GFEBS Response: Concur




                                                    65
Defense Finance and Accounting Service


                        D E F E N S E FINANCE A N D ACCOUNTING SERVICE
                                              8 8 9 9 EAST 56TH S T R E E T
                                            INDIANAPOLIS, INDIANA 4 6 2 4 9




       DFAS-NR/IN                                                               August 6, 2007



       MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

        SUBJECT: "Management of the Genera] Fund Enterprise Business System"
                  Dated July 3, 2007 (Report no. D2006-D000F1-0017.000}

                The Financial Management Center o f Excellence is providing management comments to
        the following   recommendation:

        Recommendation C 3 : We recommend the Director, Defense Finance and Accounting Service,
        develop and implement procedures to ensure that information provided to decision makers
        concerning the economic justification of system acquisitions is complete and supported in
        accordance with the Defense Acquisition Guidebook.

        Current Management Comments: Stakeholder: Ted Godzwa, 317-510-2557 Non-Concur.

                  Defense Finance and Accounting Service request Recommendation C3 be changed to
        read as follows: "We recommend Director, Defense Finance and Accounting Service retain
        documentation used to develop the economic analysis as part of the official program
        documentation in accordance withh the Defense Acquisition Handbook."

                  Defense Finance and accounting Service have taken action to ensure we maintain records
        o f data provided to support the General Fund Enterprise Business System initiative and the new
        Economic Analysis.

                M y point o f contact is Ted Godzwa. He can be reached by at 317-510-2557.




                                                         Jonathan R. Witter
                                                    for Executive Director, Financial Management
                                                          Center o f Excellence




                                                    www.dfas.mil
                                              Your Financial Partner @ Work




                                                     66
Assistant Secretary of Defense Chief
Information Officer


                                             DEPARTMENT OF DEFENSE

                                               WASHINGTON,   DC   20301




                                                                          AUG 0 3 2007
   CHIEF   INFORMATION   OFFICER



             MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL

             Subject:      Draft of a Proposed Report, Management of the General Fund Enterprise
                           Business System, Project No. D2006-D000F1-0017.000 dated July 3, 2007

                     Enterprise Resource Planning (ERP) is an information technology-enabled
             discipline where the data and processes of an organization are pulled into a single, unified
             system. The Department of Defense (DoD) currently has at least seven large-scale ERP
             projects underway, with two more very near initiation. Operational efficiency is a major
             component of these projects' returns on investment, but they also have the potential to
             save the Department billions of dollars in direct costs over the long run. Their successful
             implementation is very important to the Department, and the implementation
             methodologies contained in the DoD Enterprise Software Initiative (DoD ESI) systems
             integration blanket purchase agreements (BPAs) were designed to help accomplish this
             goal.

                    The subject report is highly critical of the DoD ESI system integration BPAs used
             by the Army for their ERP project. The report seems to confuse the BPAs, which are
             indefinite quantity/indefinite delivery vehicles allowing for both fixed price (FP), and
             time and materials (T&M) methodologies, with "fixed-price contracts," Under the BPAs,
             the customer (in this case the Army) issued delivery orders which required use of both
             FP, including various incentives, and T&M.

                     Most importantly, recommendations B.1.a and B2 - if implemented - will have a
             definite "chilling effect" on the use of the systems integration BPAs. This would not be
             in the best interest of the Department in general, and would have negative consequences
             for two major ERP efforts which are just now trying to move forward with the DoD ESI
             systems integration BPAs, These recommendations should be re-worded, so as to not
             appear prescriptive, and allow Program Managers the flexibility they need to make large-
             scale ERP implementations work. Specifically, tying the BPAs' use to only those projects
             where "...systems requirements are fully defined..," will probably be interpreted too
             broadly, because all large-scale ERP implementation projects involve some degree of
             uncertainty. Major uncertainty is typically resolved in the general planning, or
             "blueprinting" phase, and further reduced during subsequent detailed planning modules.
             The DoD ESI systems integration BPAs are actually quite flexible, and are designed to be
             used from an ERP implementation project's beginning stages, all the way through to final
             completion. Suggestions for improvement are offered below;




                                                        67 

Recommendation B.l.a:
Clarify when Research, Development, Test and Evaluation funding should be used
for systems integration efforts, particularly for projects that are satisfied with
commercial services, such as the services provided under the Enterprise Software
Initiative systems integration BPAs,

Recommendation B.2:
We recommend that in the future, the Under Secretary of Defense
(Comptroller/Chief Financial Officer not allow obligation authority to be used by
programs for implementation phases of large and complex system
implementations until (a) requirements are fully defined for the phase to be
acquired; and (b) the program office has made a determination whether any
Research, Development, Test and Evaluation funding requested meets the criteria
in guidance or regulations provided as a result of Recommendation B.l.a.




                                  68 

Business Transformation Agency


                                                                       JUL 30    200?




      MEMORANDUM FOR PROGRAM DIRECTOR, DEFENSE FINANCIAL
                                 AUDITING SERVICE, DoDIG

      THROUGH: DIRECTOR, ACQUISITION RESOURCES AND ANALYSIS;

      SUBJECT: Response to DoDIG Draft Report on the Management of the General
               Fund Enterprise Business System (Project No. D2006-D000FI-
               0017.000)


             Attached is Business Transformation Agency's comments to subject
      report. My point of contact is Ms. Sheila Banner, 703-602-4921, or via email at
      sheila.bahner@bta.mil.




                                        David M. Fisher
                                        Director
                                        Business Transformation Agency




      Attachment:
      As stated




                                             69
                            BUSINESS TRANSFORMATION AGENCY
                                     1851 SOUTH BELL STREET
                                    ARLINGTON, VA 22240-5291

                                                                           ,JUL 3 0 2007

Mr. Jack L. Armstrong
Program Director, Defense Financial Auditing Service
Department of Defense Inspector General
400 Army Navy Drive (Room 801)
Arlington, VA 22202-4704

Dear Mr. Armstrong:

I would like to raise some specific concerns regarding DoDIG Draft Report on the
Management of the General Fund Enterprise Business System (GFEBS). My concerns
are not specific to the stated subject of the report (i.e., the Management of the GFEBS).
Specifically, I have no comments on sections A or C. However, I have significant
concerns about the recommendations made in Section B (Commercial Item Acquisition).

In this section, the report makes recommendations on the applicability and future use of
the Enterprise Software Initiative (ESI) blanket purchase agreement (BPA) for system
integration services. The report appears to conclude that based solely on the experience
of the GFEBS program that the ESI BPA should no longer be used by the Department. 1
believe this broad conclusion is not supported by the evidence in the report in that the
BPA has been used by several similar programs and there are no facts whatsoever
presented as to the success, failure, or appropriateness of the vehicle in those programs
(other than to recognize that it has been used elsewhere). In fact, my office has done
extensive research on the use of the BPA across all of these large programs, and our
fundamental conclusion is that the cases where the BPA has been less successful is
typically for two reasons: (1) that the vehicle was simply not used properly and/or (2) that
the program was unable to achieve sufficient management controls (typically in the area
of requirements management) that were required for a successful implementation. In the
 latter case, these programs would have suffered regardless of the contract vehicle. Any
program that had the program planning deficiencies as cited in your report on GFEBS
would have struggled under any contract type.

The report focuses on the inappropriateness of the contract vehicle in large part because
of the fixed price nature of the vehicle. But the vehicle does not require the entire
implementation to be contracted under a fixed price structure. This has typically been the
way the vehicle has been used but is by no means required by the vehicle itself. The
nature of these Enterprise Resource Planning (ERP) programs is that there will always be
a discovery phase in the early cycles of the implementation, and that conducting this
portion of the program under fixed price parameters is highly problematic. However, the
programs typically agree that when this phase is over, transitioning to a predominantly




                                             70 

fixed price methodology is perfectly appropriate (while maintaining some non-fixed price
elements for small amounts of unanticipated periods of discovery as may be needed).
The point is that, if used properly up front, the ESI BPA supports exactly this pricing
model. GFEBS suffered because it utilized predominantly fixed price from the very
beginning of its program. That was a strategic mistake, and one that has been made by
 other similar programs across the Department. Our recommendation has been not to
 eliminate the good elements of the vehicle (for which your report provides no insight at
 all) simply because a number of programs in the Department haven't been utilizing the
 vehicle as effectively as they could. Rather, our recommendation has been to educate the
 stakeholder population on how to utilize the current vehicle but in the more flexible 

 manner that is inherently already available. 


My second concern is that the report apparently draws widespread conclusions about the
BPA based solely on the experience of the GFEBS program. The GFEBS team has been
by far the most outspoken critic of the BPA from the very beginning, so it is not
surprising to see this report reflect such a negative opinion. Others who have also not
used the vehicle effectively have had similar experiences. Your conclusions would be
more supportable if those additional observations were included. However, a more
expansive review of the vehicle would also highlight many of the positives available via
the BPA and how it has been used by some programs, and that if the flexibility available
within the vehicle is used more effectively by the program, then the problems
encountered by GFEBS will not necessarily appear.

 There are additional elements of the report that also raise concerns. The ESI BPA is
 faulted for a S3.6M fee to be paid to the General Services Administration (GSA) over the
 life of the contract. Is it the IG's position that the DoD should not use any GSA
 contracts? I see no other conclusion to be drawn from this criticism of the BPA, yet I did
 not see that as a recommendation in the report. If that is the position of the IG, then I
 believe it should be stated as such. If not, then there is clearly a cost of doing business
 with GSA (presumably because of the value added in services provided), and that these
  fees may in fact be perfectly appropriate. There is no discussion whatsoever of what
  those fees are for, and what fees would be incurred (either through internal labor or
  contract services) if a GSA vehicle were not utilized. Further, the BPA is criticized for
  the negotiated $25,000 per year to the Navy for the administration of the vehicle. That
  seems like a bargain given the cost savings that the vehicle offers a program in terms of
   already completed market research, pre-competed preferred vendors, pre-competed
   methodologies, etc. There is no mention of the value a program receives for this fee,
   which could arguably be significantly greater than the fees mentioned here.

  Finally, I am confused by recommendation B.l.a. that states, "Discontinue the use of the
  Enterprise Software Initiative blanket purchase agreement as the contract vehicle for
  future large and complex system implementations until system requirements are fully
  defined and approved and the use of Research, Development, Test, and Evaluation




                                             71 

funding is no longer required." First, I would agree that the fixed price element of the
ESI BPA should not be used in these kinds of programs until such time that system
requirements are fully defined. However, this is absolutely achievable within the
construct of the BPA. The GFEBS program did not use it this way, but that was based on
a decision that someone made, not based on the constraints of the vehicle. Second, even
after requirements are fully defined, I believe it is still perfectly acceptable to use
RDT&E funding for a significant portion of these implementations. Just because
requirements are fully defined, does not alleviate the need for extensive development,
testing, and evaluation. In fact, under the methodologies covered by the BPA that is
exactly what occurs, following highly repeatable methodologies mat have been
consistently demonstrated by the prime vendors on the BPA. That is the nature of this
work and appears to be perfectly consistent with the purpose of RDT&E funding {as well
as perfectly appropriate for used of a fixed price element of the contract once the initial
discovery phase and requirements finalization have been completed). Both parts of this
recommendation leave me at a loss.

In conclusion, I believe that the report, which finds significant faults in the management
of the GFEBS program (the specific focus of the report), inappropriately reaches a
conclusion that since GFEBS struggled with various aspects of the BPA then the BPA is
inappropriate in all similar projects. This appears to be a far reach to me, along the lines
of attempting to "throw the baby out with the bath water." That being said, the report
does raise legitimate questions about the BPA, which are many of the same questions that
have been brought to my attention by several of the programs. However, I believe the
only prudent approach is to conduct an extensive review of the use of the BPA across all
of these programs before reaching any dramatic conclusions (be they positive or
negative). I believe that in such a review you will find some of the same problems
encountered by GFEBS, but also find a number of other lessons learned and benefits that
will enable future users of the BPA to use it in a much more effective manner. I strongly
encourage holding off on the far reaching recommendations in section B of this report
until such time as a more comprehensive review of the vehicle is made. I believe that my
office, which has already independently performed a similar review, might be helpful in
your fact finding, and we would be happy to participate in such a review.

Thank you for your consideration.




David M. Fisher
Director
Business Transformation Agency




                                         72 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Jack L. Armstrong
Carmelo G. Ventimiglia
Craig W. Michaels
Kathleen A. Furey
Cheri D. Givan
Paul R. Glenn
Martin J. Radtke
Thomas W. Shurman
Jamie E. Vandesteene
Jonica M. McPeak
E. Ellen Kleiman-Redden
